United States
Department of
Agriculture

Office of
Inspector
General

N0. 63
May 2010




Office of Inspector General
Semiannual Report to Congress




                              First Half

                              2010
                                                     April 1, 2009 – September 30, 2009




                              October 1, 2009 - March 31, 2010
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD
RESULTS IN KEY CATEGORIES

SUMMARY OF AUDIT ACTIVITIES
Reports Issued
      Number of Reports	                                                                           31
      Number of Recommendations	                                                                  167
Management Decisions Made
      Number of Reports	                                                                           18
      Number of Recommendations	                                                                  119
Total Dollar Impact (Millions) of Management-Decided Reports	                                   $16.0
      Questioned/Unsupported Costs		                                                             $0.1
      Funds To Be Put To Better Use	                                                            $15.9
SUMMARY OF INVESTIGATIVE ACTIVITIES
Reports Issued	                                                                                   131
Impact of Investigations
      Indictments	                                                                                164
      Convictions	                                                                                187
      Arrests	                                                                                    148
Total Dollar Impact (Millions)	                                                                 $95.1
Administrative Sanctions	                                                                         119


OIG MAJOR USDA MANAGEMENT CHALLENGES (August 2009)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 8 and 14.
2) Implementation of Strong, Integrated, Internal Control Systems Still Needed
Related material can be found on pages 9, 12-15, 17-18, 22-25.
3) Continuing Improvements Needed in Information Technology (IT) Security
Related material can be found on pages 22-25.
4) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on page 4.
5) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
No work was reported during this period.
6) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
Related material can be found on page 26.
7) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
the Cost of Fighting Fires
Related material can be found on pages 4 and 23.
8) Improved Controls Needed for Food Safety Inspection Systems
Related material can be found on page 1.
9) Implementation of Renewable Energy Programs at USDA
No work was reported during this period.
10) Implementation of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
Related material can be found on pages 13-18, 25, 29-32.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of
Agriculture (USDA) for the 6-month period ending March 31, 2010. Our overall statistical accomplishments this period have been
impressive. We conducted successful investigations and audits that led to 148 arrests, 164 convictions, $95.1 million in recoveries
and restitutions, 156 program improvement recommendations, and $16 million in financial recommendations.
During this period, OIG has devoted a significant portion of its resources to supporting the effective implementation of $22.5 billion
in funding provided to USDA programs through the American Recovery and Reinvestment Act of 2009 (Recovery Act). We have
31 Recovery Act audit projects underway, with an additional 11 planned for the remainder of the fiscal year. OIG’s investigation
program is also supporting effective implementation of the Recovery Act by providing enhanced fraud awareness training and
materials to USDA employees, contractors, and grantees. The scope and effectiveness of our Recovery Act work would not have been
possible without the support of the Administration and additional resources provided by the Congress.
This report summarizes the most significant OIG activities (including our Recovery Act activities) during the period, organized
according to our strategic goals, as outlined in the OIG Strategic Plan for Fiscal Years (FY) 2007-2012:
σσ    Safety, Security, and Public Health – We found that the Agricultural Marketing Service needs to refine its oversight of
      the National Organic Program to ensure the authenticity of products advertised as “organic.” We also conducted a joint
      investigation with the U.S. Department of Homeland Security into the smuggling of prohibited poultry and meat products.
      As a result of this operation, two individuals were convicted and more than 1 million pounds of illegal food products were
      destroyed, which could have harbored diseases posing a threat to American agriculture. Additionally, OIG, working with other
      law enforcement agencies, had significant success in combating dogfighting in a number of States.
σσ    Integrity of Benefits – Investigations into USDA’s Supplemental Nutrition Assistance Program (SNAP) resulted in 50 arrests
      and approximately $9.5 million in monetary results during the reporting period. The program, as administered by USDA’s
      Food and Nutrition Service, is intended to improve access to a healthy diet for low-income households and also provide
      economic benefits to participating retailers, as well as farmers. Our investigations help stop fraudulent activities that divert
      resources from these vital program goals. An audit revealed that the Natural Resources Conservation Service (NRCS) should
      provide more oversight in its Watershed Protection and Flood Prevention Operations Program. Although awarded $145
      million through the Recovery Act, NRCS issued insufficient guidelines to its recipients in terms of their reporting obligations.
σσ    Management Improvement Initiatives – Our audit work found that the Forest Service needs to reconsider management of
      its firefighting labor crews. We made a series of recommendations concerning the need to identify data trends to determine
      personnel needs every year. We also found that USDA has provided significant Recovery Act information and assistance to
      its agencies, but has not established an internal control structure with formal policies and procedures that provide a clear
      indication of Departmental versus agency responsibility for determining the completeness and validity of Recovery Act
      recipient reporting.
σσ    Stewardship Over Natural Resources – Our audit work found that the Forest Service needs to modify its contract templates
      in I-Web (a web-enabled General Support System) to include Recovery Act provisions used for Recovery Act-funded projects.
As Inspector General, I am deeply appreciative of the commitment and expertise USDA OIG staff members bring to their work.
The accomplishments documented in this report are the result of their work. These successes are also due in large part to the
continued support of USDA Secretary Tom Vilsack, Deputy Secretary Kathleen Merrigan and the Congress.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22

 Stewardship Over Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 34

 Abbreviations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48
                                                                    Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                    In the first half of FY 2010, we devoted 11 percent of our
                                                                         total direct resources to Goal 1, with 99.8 percent of these
Strengthen USDA’s ability to implement safety and                        resources assigned to critical-risk and high-impact work. A
security measures to protect the public health as                        total of 100 percent of our audit recommendations under Goal
well as agricultural and Departmental resources.                         1 resulted in management decision within 1 year, and 60 per-
                                                                         cent of our investigative cases resulted in criminal, civil, or
To help USDA and the American people meet critical
                                                                         administrative action. OIG issued three audit reports under
challenges in safety, security, and public health, OIG provides
                                                                         Goal 1 during this reporting period. OIG’s investigations under
independent and professional audits and investigations in these
                                                                         Goal 1 yielded 67 indictments, 84 convictions, and $630,203
areas. Our work addresses such issues as the ongoing challenges
                                                                         in monetary results during this reporting period.
of agricultural inspection activities, safety of the food supply,
and homeland security.




  Management Challenges Addressed UNDER GOAL 1
  σσ    Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2, 3, and 4)
  σσ    Continuing Improvements Needed in IT Security (also under Goal 3)
  σσ    Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
  σσ    USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
        (also under Goal 3)
  σσ    Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
        the Cost of Fighting Fires (also under Goals 3 and 4)
  σσ    Improved Controls Needed for Food Safety Inspection Systems




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK                                 marketed nonorganic mint under USDA’s organic label for
FOR GOAL 1                                                               2 years. In another four cases, enforcement actions took
                                                                         between 7 and 32 months. During this time, the operations
Oversight of the National Organic Program Needs                          continued to improperly market their products as certified
Strengthening                                                            organic. Although 41 complaint cases had opened since 2004,
Agricultural Marketing Service (AMS) officials made                      only 22 were resolved by NOP officials within a reasonable
improvements to the National Organic Program (NOP) in                    timeframe. The remaining 19 complaints remained unresolved
response to our 2005 audit, including implementing a protocol            on average for 3 years. When we informed management, AMS
for resolving conflicts with the National Organic Standards              officials issued a new complaint procedure and resolved all but
Board. However, further improvements are needed to ensure                6 of the 19 complaints.
effective oversight of the program.                                      We also found that the California State Organic Program
NOP officials did not have adequate procedures or a system for           (SOP) is not equipped to properly enforce NOP requirements
tracking the receipt, review, and disposition of complaints and          because of a lack of compliance and enforcement procedures.
any subsequent enforcement actions. As a result, NOP did not             Despite being required to periodically test residue at organic
issue an enforcement action against an organic operation that            operations under the Organic Food Production Act of 1990,




                                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half   1
                                                                      Goal 1




AMS left it optional for certifying agents to test for residue.                 fighting rings. Guns, drugs, dogs, and stolen property were
NOP officials also did not ensure consistent oversight of                       also seized during the raids. Many of those arrested had
organic operations by certifying agents or provide adequate                     extensive prior criminal convictions.
guidance to the certifying agents. Finally, NOP did not
complete required onsite reviews at 5 of the 44 foreign                         The actions in this reporting period now bring the total
                                                                                to 20 defendants who have pled guilty to conspiracy and/
certifying agents in a timely manner.
                                                                                or engaging in dogfighting. A total of 6 individuals have
AMS agreed to strengthen its enforcement procedures and to                      been sentenced to upward departure prison terms ranging
resolve and track complaints in a timely manner, implement                      between 12 and 18 months, and probation terms between
a plan for achieving compliance from California’s SOP, obtain                   24 and 36 months.
an Office of the General Counsel (OGC) opinion on residue                  σσ   An animal fighting initiative in Michigan resulted in
testing, and strengthen oversight of certifying agents and                      the identification of several groups actively engaged in
operations. (Audit Report 01601-3-Hy, Oversight of the                          dogfighting in the Lansing area. Investigators worked in
National Organic Program)                                                       conjunction with the Ingham County Animal Control. In
                                                                                November 2009, a State search warrant was issued for a
Owner Misrepresents Conventional Crops as Organic                               subject’s residence, and the two individuals were arrested.
to Consumers                                                                    During the warrant operation, six fighting dogs were seized
                                                                                along with a marijuana growing operation, underground
In February 2010, the managing owner of an organic company
                                                                                dogfighting publications, and dogfighting paraphernalia.
in the Northern District of Texas was sentenced to serve 24
                                                                                The individuals were charged with animal fighting and
months of imprisonment, followed by 36 months of supervised
                                                                                attending an animal fight. During March 2010, two
release. During inspections conducted by the Texas Department                   individuals were sentenced in Ingham County Circuit Court
of Agriculture (TDA) in 2006, he provided false statements and                  to incarceration ranging from 2 to 6 months, and 18 to 24
documents in order to conceal sales of 3,242,771 pounds of                      months probation. Both individuals are also prohibited from
conventional milo, 132,000 pounds of conventional garbanzo                      possessing animals for 5 years.
beans, and 509,660 pounds of conventional pinto beans, which               σσ   An 18-month investigation of a far-reaching dogfighting
were represented as organic crops and sold to the company’s                     conspiracy led to the first ever Federal indictments in
customers in 2005 and 2006. As part of his sentence, he was                     Michigan for this activity. At the conclusion of our
also ordered to pay $523,692 in restitution and is not allowed                  operation, search and arrest warrants were served on the
to participate in any USDA programs for the next 60 months.                     residences of three subjects who were found in possession of
                                                                                47 fighting dogs. All three individuals pled guilty to Federal
Animal Fighting and Related Offenses Result in Prison                           felony animal fighting and conspiracy charges. During
Sentences and Monetary Recoveries                                               February and March 2010, the individuals were sentenced
σσ    During this reporting period, 15 defendants pled guilty                   in U.S. District Court, Eastern District of Michigan to
      to conspiracy and/or engaging in dogfighting, and 6 were                  sentences ranging from 6 to 13 months incarceration,
      sentenced as part of what has been referred to as the largest             2 years probation, and a 2-year prohibition from owning,
      crackdown on dogfighting in the United States. These                      buying, selling, or possessing dogs. The case was worked
      defendants were among 28 people in 7 states who were                      with the assistance of the Lenawee and Huron County
      indicted and arrested in or about July 2009, when OIG                     Sheriff’s Departments.
      agents, with assistance from the FBI and the Missouri                σσ   As we reported in the Semiannual Report to Congress (SARC),
      State Highway Patrol (MSHP), directed the simultaneous                    Second Half of 2009, an extensive investigation of illegal
      execution of more than 50 Federal search warrants in a                    cockfighting in Virginia resulted in the successful Federal
      multi-jurisdictional operation. The operation took months                 prosecution of numerous individuals. Our investigation
      of intricate planning and the cooperation of over 100                     focused on four individuals who owned, operated, or
      Federal, State, and local law enforcement officers. Those                 supported a sportsman’s club that hosted illegal cockfights.
      arrested were indicted on charges of engaging in dogfighting              Participants throughout the East Coast brought their
      and buying, selling, and breeding of dogs destined for the                fighting birds, paid entry fees, and illegally gambled on the




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                     Goal 1




      outcomes of the fights. The then-sheriff of Page County             Houston Businessman Bilks Government Out of
      accepted campaign contributions to protect the club from            Millions in Procurement Fraud Scam Involving Food
      raids by law enforcement.
                                                                          Shipped to Middle Eastern Companies
      In December 2009, the former sheriff of Page County was             The owner and employees of a Houston, Texas, food company
      sentenced to 19 months in prison, after pleading guilty             forged export certificates to send expired and non-expired
      to charges of racketeering, misusing inmate labor for               food to Middle Eastern companies, including suppliers to
      personal gain, and obstruction of justice by intimidating           U.S. troops, and conspired with a transport company to
      witnesses. He was also ordered to pay fines and restitution         inflate charges for delivering food and other items. In April
      totaling about $5,000 and to forfeit $75,000. A game bird           2009, a former purchasing agent for the food company pled
      association that lobbied to make cockfighting a legal sport         guilty to conspiracy charges and is awaiting sentencing. In
      and its president were prosecuted for violating Federal
                                                                          December 2009, in the Southern District of Texas, the owner
      campaign contribution laws. In fall 2008, the owner of the
                                                                          was sentenced to serve 24 months in jail and ordered to pay
      sportsman’s club was sentenced to 16 months in prison
      and forfeiture of $100,000; its manager was sentenced
                                                                          $3.9 million in restitution. That same month, a contractor was
      to 18 months in prison and a $1,000 fine; and two other             sentenced to serve 36 months of probation and ordered to pay
      individuals who supported the club were sentenced to                a $2,000 fine and $42,000 in restitution. A civil action is also
      6 months in prison and home confinement and probation,              pending against the business and its owners. This investigation
      along with $5,750 in fines. The game bird association               was conducted jointly with the Defense Criminal Investigative
      forfeited approximately $13,000, and its president was fined        Service and the U.S. Army Criminal Investigation Command-
      $7,500.                                                             Procurement Fraud Unit.
Operation Foul Play Nets Significant Results                              Michigan Company Sentenced for Shipping
Through a joint investigation conducted by USDA and the                   Contaminated Product
U.S. Department of Homeland Security OIGs, 20 importers                   During November 2007 and February 2008, Food and Drug
were found to have smuggled prohibited poultry and meat                   Administration (FDA) inspections of a low acid food processing
products, including duck, wild snake, chicken feet, and                   facility in Michigan, discovered samples of vegetable product
suckling pig, commingled with other manifested products                   which tested positive for viable Clostridium botulinum, a
from China into the United States. The investigation, dubbed              bacterium that causes a deadly form of food poisoning. USDA
“Operation Foul Play,” determined that this had been                      Food Programs constituted 18 percent of the company’s overall
occurring between 2001 and 2007. The investigation led to                 sales. The FDA’s Office of Criminal Investigations requested
the conviction of two individuals, one of whom pled guilty in             our assistance, and in June 2008, a Federal search warrant was
February 2010. Sentencing is pending for these individuals.               served at this facility. The investigation disclosed numerous
Additionally, these efforts resulted in the imposition of $6.7            instances where company employees fixed the appearance of
million in administrative penalties over the course of the                damaged canned goods and shipped the product to customers
investigation, which have been included in statistics for prior           throughout the country. Several nationwide recalls of the
reporting periods. During the course of the operation, 1.1                product were initiated by FDA. During September 2009, the
million pounds of prohibited agricultural food products and               company pled guilty to introducing or delivering adulterated
21,404 liters of prohibited liquid products were seized and               food via interstate commerce. In January 2010, the company
destroyed. The illegal importation of these agricultural products         was sentenced to a $5,000 fine.
has the potential of spreading diseases such as Exotic Newcastle
Disease or highly pathogenic avian influenza, which pose a
                                                                          FSIS Administration of the National Residue
threat to the United States agriculture industry.                         Program for Cattle
                                                                          One public food safety issue facing the United States is
                                                                          contamination with residual veterinary drugs, pesticides, and
                                                                          heavy metals of beef presented for slaughter and potentially




                                                                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half     3
                                                                     Goal 1




consumed by the public. Food Safety and Inspection Service                In December 2009, he was sentenced to serve 11 months of
(FSIS) tests samples of meat processed through slaughter plants           incarceration and 24 months of supervised release, and ordered
for residue and compares results to tolerances established by the         to pay a $1,000 fine.
FDA and the Environmental Protection Agency (EPA). Based
                                                                          Forest Service (FS) Needs National Workforce Plan
on our review, FSIS’ National Residue Program (NRP) is not
                                                                          Specific to Firefighters
accomplishing its mission of monitoring the food supply for
harmful residues.                                                         Like most Federal agencies, FS faces a significant number of
                                                                          retirements during the next 5-10 years. In 2009, approximately
We found that FSIS, EPA, and FDA need to coordinate with
                                                                          26 percent of its critical firefighting personnel were eligible
one another to redefine their testing criteria and procedures
                                                                          to retire, increasing to 64 percent by 2014. In assessing FS
to better identify residue before it enters into commerce.
                                                                          plans for recruiting, training, developing, and retaining those
Additionally, FSIS needs to strengthen the program by
                                                                          personnel who fill critical fire management positions, we found
requiring slaughter plants to increase controls when processing
                                                                          that FS had not taken the necessary steps to ensure that it has a
dairy cattle and bob veal (male calves). FSIS cannot readily
                                                                          sufficient number of qualified staff to meet its future wildland
identify the producers of cattle that have tested positive for
                                                                          fire management responsibilities.
residue, especially if the animal passed through several buyers
and sellers. Although obtaining the producer identification               Specifically, FS did not have a national workforce plan or
would be a proactive measure, FSIS does not have the authority            firefighter training program that ensured the continued
to require this information. We also found that FSIS does                 availability of qualified personnel to meet its firefighting needs.
not recall meat adulterated with harmful residue, even when               With an average age of 45 and suboptimal training progress,
it is aware that the meat has failed its laboratory tests. FSIS           many trainees will be almost eligible to retire by the time they
explained that it must be able to show acute harm from                    qualify for the critical positions for which they are training.
consuming a single serving of the meat and convince a U.S.                Furthermore, 40 percent of employees who take fire training
Attorney to file an action for product seizure. However, we               never follow through to qualify for a firefighter position, a
noted that, in the past, FSIS has requested that plants initiate          potential waste of $12 million annually. FS’ ability to effectively
voluntary Class II recalls for other “low” risk health situations.        suppress wildfires is also challenged by a lack of participation
Finally, we found that FSIS needs to modernize its process for            from its firefighters because it does not require them to actually
sampling carcasses at slaughter plants and then testing those             participate during wildfire events or reward them for doing so.
samples at its laboratories so that the agency can make use of            In 2008, only 9 percent of FS’ qualified firefighters actually
readily available technologies. FSIS and OIG have reached                 took part in suppressing the agency’s largest, costliest wildfires
management decision on all of the recommendations. (Audit                 while the vast majority remained at home.
Report 24601-08-KC, FSIS National Residue Program                         We also found that FS’ ability to fight fires may soon be
for Cattle)                                                               compromised if it continues to classify certain members of its
Former Food Inspector for FSIS Threatens FSIS                             fire management staff under a job series for natural resources
Employee and OIG Agents                                                   management and biological sciences (GS-401). The series
                                                                          makes academic course work a precondition for employment,
In February 2009, OIG agents attempted to interview a former
                                                                          but many FS staff may not meet this requirement by an
FSIS inspector at his residence. The subject, disgruntled by
                                                                          October 2010 deadline established by the Office of Personnel
his recent termination from FSIS, made verbal threats to his
                                                                          Management (OPM). Although intended to increase safety
former District Director. As the OIG agents approached the
                                                                          by upgrading certain fire management staff’s educational
residence, he threatened them with a semiautomatic assault
                                                                          requirements, classifying these staff under the GS-401 series
rifle. In March 2009, in the Southern District of Mississippi, he
                                                                          will likely have the opposite effect. FS generally agreed with the
was charged with one count of threatening a Federal employee
                                                                          recommendations to correct these shortcomings. (Audit Report
and three counts of assault on a Federal officer. In September
                                                                          08601-54-SF, Forest Service’s Firefighting Succession
2009, he pled guilty to one count of assault on a Federal officer.
                                                                          Planning Process)




4     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                Goal 1




GOVERNMENTWIDE ACTIVITIES – GOAL 1                                            determine whether USDA established controls to
                                                                              fulfill its roles and responsibilities as outlined in the
Participation on Committees, Working Groups,                                  Federal Emergency Management Agency’s National
and Task Forces                                                               Response Framework Emergency Support Function
                                                                              11 – Agriculture and Natural Resources. The expected
σσ   Assessment of Federal Agency Recovery Act Review
                                                                              release date for the report is June 2010.
     Procedures. OIG participated with representatives from
     the Recovery Accountability and Transparency Board,                 σσ   An OIG Special Agent is assigned full-time to the FBI’s
     the Department of Health and Human Services OIG,                         National Joint Terrorism Task Force (NJTTF). The
     and the National Endowment for the Arts OIG in                           agent attends NJTTF threat briefings and provides
     developing an audit guide for assessing Federal agency                   a variety of products related to terrorist intelligence
     processes for performing limited data-quality reviews of                 to OIG and other agencies and offices within the
     recipient-reported information on the use of Recovery                    Department. OIG Special Agents nationwide maintain
     Act funds. This guide was then used by USDA                              liaison with the FBI’s local Joint Terrorism Task Forces.
     OIG and 20 other OIGs in determining whether                             OIG’s participation on the NJTTF has provided an
     Federal agencies had designed effective processes for                    excellent conduit for sharing critical law enforcement
     performing data quality reviews and notifying Recovery                   intelligence. It has also broadened the FBI’s knowledge
     Act recipients of the need to make appropriate and                       and that of other law enforcement agencies with regard
     timely changes to Recovery Act reported data. Our                        to conducting criminal investigations connected to the
     report, issued October 2009, disclosed that USDA                         food and agriculture sector.
     had provided significant information and assistance                 σσ   OIG’s Emergency Response Team (ERT) continues
     to its agencies, but had not established an internal                     to participate on the FBI’s Joint Interagency
     control system with formal policies and procedures                       Agroterrorism Working Group. The overall goal
     that provided a clear indication of departmental versus                  of the working group is to develop protocols and
     agency responsibility for determining the completeness                   processes among the FBI, the Animal and Plant
     and validity of recipient reporting.                                     Health Inspection Service (APHIS), and OIG that are
σσ   Review of the Effectiveness of Federal Agency Recovery                   needed to facilitate a coordinated interagency response
     Act Data Quality Review Processes. In conjunction                        to an agroterrorism event. In addition, to enhance
     with the Recovery Accountability and Transparency                        its operational experience, the ERT participates
     Board, OIG has taken the lead in developing an audit                     in numerous multiagency scenario-based exercises
     guide and coordinating a governmentwide audit of                         throughout the country.
     Recovery Act reporting. The audit will determine
     whether Federal departments have fully implemented
                                                                         ONGOING AND PLANNED REVIEWS FOR GOAL 1
     an internal control structure that is effective in                  Topics that will be covered in ongoing or planned
     ensuring that Recovery Act program recipients report
                                                                         reviews under Goal 1 include:
     on the use of their Recovery Act funds completely,
     accurately, timely, and in accordance with OMB                      σσ   implementation of country of origin labeling (AMS),
     guidelines, and that any material omissions and/or                  σσ   followup on the National Organic Program as
     significant errors are identified and corrected. Five                    requested by Congress (AMS),
     OIGs are participating in this review. A final audit
                                                                         σσ   evaluation of Food Emergency Response Network
     report is expected by June 2010.
                                                                              capabilities (FSIS),
σσ   CIGIE (the Council of the Inspectors General on                     σσ   in-commerce surveillance activities (FSIS),
     Integrity and Efficiency) Emergency Management
                                                                         σσ   state inspection programs (FSIS),
     Working Group. As part of an IG community
     project led by the CIGIE Emergency Management                       σσ   controls over the voluntary inspection of slaughtered
     Working Group, we are conducting a review to                             bison (FSIS),




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half              5
                                                                     Goal 1




    σσ     assessment of inspection personnel shortages in                    ONGOING AND PLANNED REVIEWS FOR GOAL 1
           processing establishments (FSIS),                                  UNDER RECOVERY ACT FUNDS
    σσ     N60 testing protocol on beef trim for E. coli (FSIS),
                                                                              σσ    implementation of flood control dams rehabilitation,
    σσ     evaluation of the collection and analysis of meat                        phase II (NRCS).
           samples for E. coli testing (FSIS),
                                                                              The findings and recommendations from these efforts will
    σσ     food defense verification procedures (FSIS),
                                                                              be covered in future Semiannual Reports as the relevant
    σσ     effectiveness of the Safeguarding Intervention and                 audits and investigations are completed.
           Trade Compliance Units’ controls to identify and
           prevent unauthorized entry of prohibited products
           (APHIS),
    σσ     followup on evaluation of the implementation of select
           agent or toxin regulations (APHIS),
    σσ     oversight of designated qualified persons enforcing the
           Horse Protection Act (APHIS),
    σσ     licensing of animal exhibitors (APHIS),
    σσ     controls over animal import centers (APHIS),
    σσ     animal care inspections of dealers (APHIS),
    σσ     implementation of the Lacey Act for prevention of
           illegal logging practices (APHIS),
    σσ     USDA’s response to Colony Collapse Disorder
           (APHIS, ARS, FSA, NASS, NRCS, and RMA),
    σσ     USDA homeland security initiative in the 2008 Farm
           Bill (Office of Homeland Security and Emergency
           Coordination (OHSEC)), and
    σσ     followup on prior firefighter safety audits (FS).




6        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                   Goal 2




Integrity of Benefits
OIG Strategic Goal 2:                                                   Those issued during this reporting period are described in this
                                                                        semiannual report. We anticipate that our audit efforts will
Reduce program vulnerabilities and strengthen                           continue into FY 2012.
program integrity in the delivery of benefits to
                                                                        In addition, OIG staff has engaged in training and outreach
program participants.
                                                                        initiatives through presentations to professional organizations
OIG conducts audits and investigations to ensure or restore             involving State, local, and independent audit groups. OIG
integrity in the various benefit and entitlement programs of            investigators are working to ensure the integrity of Recovery
USDA, including a variety of programs that provide payments             Act programs by investigating potential fraud as warranted,
directly and indirectly to individuals or entities. The size            pursuing prosecution where needed, and implementing a
of these programs is daunting: the Supplemental Nutrition               Recovery Act whistleblower investigation program. To increase
Assistance Program (SNAP) alone accounts for approximately              fraud awareness, Investigators have participated in 46 meetings,
$40 billion in benefits annually, while well over $20 billion           outreach activities, and training sessions with our Federal, State,
annually is spent on USDA farm programs. Intended                       and local partners. We have reviewed and adjusted our hotline
beneficiaries of these programs include the working poor,               procedures so that we can identify complaints related to the
hurricane and other disaster victims, and schoolchildren, as well
                                                                        Recovery Act and handle them expeditiously in order to meet
as farmers and producers. These programs support nutrition,
                                                                        the timeframes specified in the law. We have also concluded
farm production, and rural development.
                                                                        investigative compliance reviews into referrals we received from
The $28 billion in funding USDA received under the Recovery             the Recovery Accountability and Transparency Board (RATB)
Act will be administered in a number of areas, including farm           involving possible irregularities in a number of contracts issued
loans, watershed programs, supplemental nutrition assistance,           by the Forest Service soon after passage of the legislation. Our
wildland fire management, and several rural development                 review did not disclose any significant issues, but identified
programs (such as rural housing, rural business, water and              some procedural issues which have been addressed by FS.
waste disposal, and broadband). The Recovery Act also
provided OIG with $22.5 million (to remain available until              In the first half of FY 2010, we devoted 53 percent of our total
September 30, 2013) for “oversight and audit of programs,               direct resources to Goal 2, with 93.2 percent of these resources
grants, and activities funded by this Act and administered by           assigned to critical/high-impact work. A total of 100 percent of our
the Department of Agriculture.”                                         audit recommendations under Goal 2 resulted in management
                                                                        decision within 1 year, and 71 percent of our investigative cases
OIG began working immediately with USDA and the IG
community, as well as the Government Accountability Office              resulted in criminal, civil, or administrative action. OIG issued
(GAO) and the Recovery Accountability and Transparency                  14 audit reports and 7 Recovery Act fast reports under Goal 2
Board, to carry out oversight responsibilities. Our Recovery Act        during this reporting period. OIG’s investigations under Goal
oversight plan includes proactive, short-term, and long-term            2 yielded 90 indictments, 91 convictions, and about $37.4
audit and investigative work, and can be found on our Web site          million in monetary results during this reporting period.
at http://www.usda.gov/oig/recovery/OIGSTIMULUSPLAN.pdf.
For FY 2010, we have 51 audit projects both planned and in
process. As of March 29, 2010, we have completed 9 audits                    Management Challenges Addressed UNDER GOAL 2
and issued 29 fast reports (quick turnaround reports intended to             σσ    Interagency Communications, Coordination, and
alert management to immediate Recovery Act issues). There are                      Program Integration Need Improvement (also under
31 Recovery Act projects currently ongoing and 11 scheduled                        Goals 1, 3, and 4)
to begin during the remainder of FY 2010.
                                                                             σσ    Implementation of Strong, Integrated, Internal Control
The completed audit reports and fast reports reviewed                              Systems Still Needed (also under Goal 3)
development of USDA agency program guidance and                              σσ    Implementation of the Recovery Act
requirements, internal controls, eligibility criteria, and USDA                    (also under Goal 4)
compliance activities related to Recovery Act requirements.




                                                                            USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         7
                                                                  Goal 2




EXAMPLES OF AUDIT AND INVESTIGATIVE WORK FOR                           quickly became one of the largest grain dealers/shippers in Mis-
GOAL 2                                                                 souri. Contrary to her claims, the woman could not guarantee
                                                                       higher-than-market prices for the farmers’ grain. Operating
Missouri Farmer Convicted of Bank Fraud, False                         what is referred to as a “Ponzi Scheme,” the woman only sold
Statements, Conversion, and Obstruction of Justice                     the farmers’ grain at market prices, and used the proceeds from
In September 2009, a Missouri man was sentenced in the                 subsequent grain transactions to pay the above-market prices
Western District of Missouri to serve 9 months in Federal              she had previously quoted and promised to other farmers. Over
prison, followed by 36 months of supervised release, and was           time, the woman was unable to pay all farmers because insuf-
ordered to pay $348,761 in restitution to the Commodity                ficient funds were generated to actually make payment.
Credit Corporation (CCC) and $204,423 to a local bank                  She ultimately defrauded over 180 farmers out of $27 - $50
as a result of his guilty plea to bank fraud, false statements,        million in proceeds from grain sales. In addition, CCC was not
conversion, and obstruction of justice.                                paid following the sale of approximately $481,417 worth of
                                                                       mortgaged grain made by the dealer. State fraud charges are still
The man committed bank fraud when, in order to obtain bank             pending against the dealer.
loans of $855,000, he represented that he had filed income
taxes when, in fact, he had not. The man also falsely claimed          Approved Insurance Providers (AIP) Made
that he had 285,420 bushels of grain stored to secure loans of         Unsupported Changes
$733,616. The obstruction of justice charge came after the man         In May 2006, the Secretary of Agriculture authorized the
threatened to shoot the Federal Bankruptcy Trustee and the real        Farm Service Agency’s (FSA) Hurricane Indemnity Program
estate auctioneer who had been hired to sell the man’s property        (HIP) to help producers who suffered crop losses during the
if either came onto his property.                                      2005 hurricane season. FSA relied on crop insurance loss
In October 2009, he was granted permission to be                       claim information maintained by the Risk Management
conditionally released in order to complete the fall harvest.          Agency (RMA) to determine which insured producers
During that release, the man attempted to sexually assault his         qualified for HIP. FSA could not change RMA’s data, but
ex-wife. He was rearrested by local authorities and returned to        Approved Insurance Providers (AIP) could. When AIPs make
Leavenworth Federal Penitentiary. In December 2009, with               such changes, they are required to acquire and maintain
less than 10 days to complete his sentence, the man walked             supporting documents, such as statements from a loss adjuster
away from the prison during a winter work detail. He was               and producer, which confirm that the changes are accurate.
subsequently seen walking across a Missouri River bridge               In August 2006, FSA discovered that AIPs were changing
from Kansas into Missouri, dressed only in prison garb and             producers’ causes of loss and dates of damage in RMA’s
barefooted. He was arrested and charged with escape.                   database in order to retroactively qualify producers for HIP
                                                                       payments. FSA officials alerted RMA, which sent a list of
Missouri Grain Dealer Sentenced as a Result of                         206 policies with cause of loss changes to the AIPs responsible
“Ponzi Scheme”                                                         and required them to certify to the changes’ legitimacy and
In September 2009, a Missouri woman who owned a large                  to provide supporting documentation. In total, AIPs made
grain trucking and marketing company in the Eastern District           unsupported changes totaling over $1 million. As a result of our
of Missouri was charged with mail fraud, wire fraud, interstate        audit work, we recommended that RMA review all supporting
transportation of stolen property, and conversion of property          documentation provided by AIPs in response to the agency’s
pledged to CCC. She pled guilty two months later. In February          requests for justification for loss claim changes, and that FSA
2010, she was sentenced to serve 108 months in Federal prison          recover any overpayments. In addition, we recommended that
followed by 36 months supervised release, and ordered to pay           RMA and FSA implement policies that require interagency
$27.4 million in restitution. Between 2002 and 2009, she mar-          data-sharing agreements to include specific procedures and
keted and sold grain for farmers at allegedly higher-than-market       timeframes to resolve concerns, and to elevate matters to the
prices. As a result of the false representations, the woman            appropriate official when timely resolution does not occur.




8     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                Goal 2




Both FSA and RMA agreed with our recommendations. (Audit             FSA Overfunded an Emergency Loan Because a
Report 50601-15-At Hurricane Indemnity Program – Integrity           Crop Insurance Payment Was Not Subtracted From
of Data Provided by RMA)                                             the Total Loss
Louisiana Farmer Convicted of Conversion of                          We found that FSA’s controls adequately prevented duplication
Mortgaged Collateral                                                 of payment, although we noted the agency did not prescribe
In May 2009, in the Western District of Louisiana, a farmer          that its officials verify the amount of disaster compensation that
was charged with one count of conversion of property mort-           producers reported (e.g., insurance claims). Upon reviewing
gaged to the Government after he sold collateral mortgaged to        58 loans, our audit noted that FSA overfunded only one by
FSA and converted proceeds to his own personal use. In August        $29,029, as it mistakenly did not subtract a crop insurance
2009, he pled guilty to one count of conversion of mortgaged         payment from the total loss amount. Agency officials calculate
property and in November 2009, he was sentenced to serve             the loan amount partly based on producers’ eligibility for
3 months of home confinement and 60 months of probation,             other disaster compensation. FSA agreed with the internal
and was ordered to pay $129,052 in restitution.                      control weakness and accepted our recommendation to revise
                                                                     its handbook to require officials to verify disaster-related
Michigan Apple Producer Sentenced Following                          compensation before issuing emergency loans. FSA also agreed
Guilty Plea for Forgery                                              to recover the $29,029 from the overfunded loan. (Audit
An apple producer in Dowagiac, Michigan, admitted to                 Report 03601-13-SF, Controls Over Emergency Loans -
altering a two-party check as part of a scheme to convert            Reductions for Duplicate Benefits)
approximately $300,000 worth of apples which were pledged            Former Oklahoma Child and Adult Care Food
as security for FSA direct operating loans. The producer and
                                                                     Program Sponsor Ordered to Pay $1.6 Million for
his brother used proceeds from sales of converted apples to
                                                                     Theft of Federal Funds
pay unsecured creditors and personal expenses from 2003
to 2004. In February 2010, the producer pled guilty to one           A former Tuttle, Oklahoma, Child and Adult Care Food
count of forgery in the Van Buren County Circuit Court. He           Program (CACFP) sponsor pled guilty to the theft of
was sentenced to 18 months of probation, and ordered to pay          approximately $1.6 million from the CACFP. In January
$10,000 in restitution and $578 in fines. The producer, his          2010, in the Western District of Oklahoma, the sponsor was
father, and brother also agreed to be debarred from further          sentenced to serve 41 months in prison and to pay $1.6 million
participation in USDA-funded programs.                               in restitution, as well as a $100 fine. In addition, the former
                                                                     sponsor was ordered to forfeit all right, title, and interest
Correction: Former Montana State Committee                           in $1.6 million in assets, including vehicles, residential and
Chairman Conspired with Farm Foreman, Not                            commercial property, and investment accounts, in an attempt
FSA Employee, to Defraud FSA                                         to recover the stolen Food and Nutrition Service (FNS) funds.
In a correction to a previously reported investigation in the        Community Center’s Director Sentenced to Prison
SARC, Second Half of 2009, it was inaccurately reported that
                                                                     and Restitution for CACFP Fraud
an FSA employee conspired with a former Montana State
Committee Chairman to create a fictitious farming partnership        In an update to an investigation reported in the SARC, Second
and submit false documents to FSA in order to avoid payment          Half of 2009, the former director of a Brooklyn community
limitation provisions. From 1986 to 2006, the former Montana         center was sentenced in December 2009 to 18 months in
State Committee Chairman actually conspired with his farm            prison and ordered to pay restitution of $500,517. From
foreman to receive more than $773,000 in farm program                December 2004 to July 2006, the community center received
funds to which he otherwise would not have been entitled. The        approximately that amount in CACFP funds for meals and
former Montana State Committee Chairman agreed to pay                snacks reportedly served in its after-school programs and day
$275,000 and to step down as State Committee Chairman as a           care center. Our joint investigation with the FBI and the
result of our investigation.                                         New York Department of Health revealed that none of the




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half     9
                                                                   Goal 2




community center’s programs had access to kitchen facilities                 store owner and two store employees were arrested based
and that no meals were served to children in the community                   on a criminal complaint charging them with conspiracy to
center’s care. In December 2008, the center’s former director                commit theft of Government funds and a Federal search
was charged in the Eastern District of New York with CACFP                   warrant was executed at the store. In November 2009,
fraud and submitting false claims and pled guilty.                           all of the subjects pled guilty in U.S. District Court,
                                                                             District of New Jersey. In February 2010, the store owner
FNS Has Implemented Controls to Address Past                                 was sentenced to 18 months imprisonment and the store
Deficiencies Related to SNAP Electronic Benefit                              employees were sentenced to 15 months imprisonment and
Transfer (EBT) Transactions                                                  12 months and one day imprisonment, respectively. All
                                                                             three defendants were also ordered jointly and severally to
We found that FNS had implemented recommendations                            pay restitution of $283,350.
to address past control deficiencies and that States had
                                                                        σσ   The investigation of a Columbus, Ohio, retailer disclosed
contingency plans to replace prime processors if they became
                                                                             $200,000 in SNAP and Women, Infants, and Children
insolvent. We evaluated controls over transactions processed                 (WIC) benefit trafficking. The owner was charged with
through third party processors and identified a small number                 SNAP fraud, WIC fraud, theft of Government funds,
of instances in which retailers redeemed SNAP benefits using                 money laundering, and filing a false tax return. The
incorrect store authorization numbers. Most of these instances               owner pled guilty and was sentenced to 6 months home
involved either chain stores that incorrectly assigned the                   confinement, 6 months in a half-way house, 36 months
same authorization number to more than one of their stores                   probation, restitution of $86,000 to USDA and $49,501 to
or input errors made by the third party processor. The items                 IRS, and was ordered to file an amended tax return.
identified were not material enough to justify a formal audit           σσ   An OIG investigation disclosed that two individuals who
recommendation. However, FNS has agreed to take actions to                   owned a store in Pembroke, Georgia, were trafficking
address this issue. FNS plans to work with the EBT community                 in SNAP benefits. In March 2009, a search warrant was
to ensure that the proper retailer authorization number is used              served at the store location. Two consent searches were
and, if necessary, updated with accurate information in a timely             also conducted at that time, and business records and
manner. (Audit Report 27099-71-Hy, Summary of Nationwide                     $237,562 in cash were seized. In April 2009, the man and
                                                                             woman were charged in U.S. District Court, Southern
EBT Operations)
                                                                             District of Georgia, with conspiracy to commit SNAP
SNAP and Related Offenses Result in Significant                              fraud. In February 2010, the man and woman were each
Prison Sentences and Monetary Recoveries                                     sentenced to 18 months of imprisonment and 36 months
                                                                             of probation. The Court ordered that the man be detained
σσ    A SNAP investigation involving a Detroit gas station
                                                                             by Immigration and Customs Enforcement for deportation
      determined that from May 2005 through February 2007,
                                                                             proceedings after his sentence was served. Forfeiture in the
      the station owner and an employee purchased more than
                                                                             amount of $237,562 was also ordered by the court.
      $98,000 in SNAP benefits from welfare recipients. In April
      2009, the station owner pled guilty to wire fraud and in          σσ   A joint investigation with the Florida Department of Law
      October 2009, was sentenced in United States District                  Enforcement, Florida Division of Alcoholic Beverages
      Court to 14 months incarceration, $98,000 restitution,                 and Tobacco, and the Palm Beach County Sheriff’s Office
      and 36 months supervised release. This investigation                   disclosed that two individuals were trafficking in SNAP
      was conducted with the assistance of the IRS-CI and the                benefits at a store in Belle Glade, Florida. In April 2009, a
                                                                             search warrant was served at the store location. During the
      Michigan State Police.
                                                                             search, investigators seized evidence of trafficking, weapons,
σσ    From June 2008 to March 2009, undercover trafficking                   and illegal drugs. The individuals were subsequently charged
      of SNAP benefits took place at a Westville, New Jersey,                in the 15th Judicial Circuit for Palm Beach County, Florida,
      gas station and food store, during which approximately                 with organized fraud, grand theft, and food stamp fraud. In
      $1,000 in SNAP benefits were exchanged for approximately               February 2010, one individual was sentenced to 36 months
      $500 in cash. Through the investigation and analysis of                imprisonment and 60 months probation. The second
      financial data, the store’s fraudulent SNAP transactions               individual was sentenced to 188 days imprisonment (time
      were determined to total $283,350. In April 2009, the                  served) and 48 months probation.




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                         Goal 2




σσ     A joint investigation named “Operation Inconvenience”                       also operated an illegal overseas money transfer business,
       conducted by OIG, the FBI, the Bureau of Alcohol,                           commonly known as “hawala,” through which they
       Tobacco and Firearms (ATF), and other North Carolina                        facilitated the exchange of SNAP and WIC benefits for cash
       State law enforcement agencies between May 2009 and                         and overseas money transfers. Of particular significance, the
       December 2009 was initiated to address systemic criminal                    investigation determined that store owners and employees
       activity involving three convenience stores in Greenville,                  routinely allowed customers to use SNAP benefits to fund
       North Carolina. This investigation focused on gang activity,                the transfer of money overseas, generally to persons located
       drug activity, fencing operations, and SNAP fraud involving                 in the Middle East and the Horn of Africa. In September
       all three stores.                                                           and November 2009, the owners pled guilty to over
                                                                                   $750,000 in SNAP and WIC fraud. They are scheduled to
       The investigation resulted in the arrest and indictments                    be sentenced in April 2010.
       of 6 Yemen Nationals on Federal conspiracy charges for                 σσ   An OIG investigation, conducted with IRS-CI, identified
       the interstate transportation of stolen property and theft                  two Detroit area liquor stores engaged in SNAP benefit
       of Government programs funds. The six individuals who                       fraud and money laundering activities. From 2003 through
       worked in the stores were participating and facilitating                    2006, store owners and employees trafficked more than
       criminal gang activity that was deemed a community                          $2 million in SNAP benefits and deliberately structured
       nuisance by the city of Greenville. As a result of this joint               hundreds of financial transactions in order to circumvent
       investigation, the three stores were permanently closed                     IRS reporting requirements. OIG and IRS-CI special
       and one store was seized and demolished. Two of the six                     agents utilized informants to conduct over 20 undercover
       defendants pled guilty in December 2009, and two pled                       operations at the store. The owner evidently knew he was
       guilty in January 2010. During this reporting period,                       being investigated, as he repeatedly told the informants,
       these four defendants pled guilty and were sentenced to                     “I have to be careful, the IRS is watching me,” while
       prison terms of between 6 and 20 months. They are subject                   completing fraudulent SNAP transactions. Four defendants
       to deportation proceedings upon release. Charges were                       were sentenced in February 2010, and were collectively
       dismissed against one defendant and legal action is pending                 ordered to serve over 90 months imprisonment and pay
       for the sixth individual.                                                   fines and restitution totaling approximately $6 million.
                                                                                   In addition, the defendants agreed to forfeit more than
                                                                                   $500,000 cash seized during search warrant operations.
                                                                                   During March 2010, the owner was sentenced to 51 months
                                                                                   incarceration and ordered to pay $1.6 million in restitution
                                                                                   to FNS.
                                                                              σσ   Our joint investigation with the U.S. Department of
                                                                                   Housing and Urban Development (HUD), OIG revealed
                                                                                   that an Arlington, Virginia, man failed to report income and
                                                                                   other financial assets to the Arlington County Department
                                                                                   of Human Services. As a result, from June 15, 2000 to
                                                                                   March 2008, he received $31,542 in SNAP benefits and
                                                                                   from November 2001 to March 2008, he received $70,684
                                                                                   in Section 8 Housing Assistance Payments, $7,390 in
                                                                                   Temporary Assistance for Needy Families, and $42,005
(1) Store in Greenville, NC being demolished to prevent the                        in Medicaid benefits to which he and his family were not
                                                                                   entitled. In July 2009, the man was charged in the Eastern
possibility of illegal activities resuming at the site. Greenville, NC
                                                                                   District of Virginia with one count of theft of Government
Police Department Photo.
                                                                                   funds. He subsequently pled guilty and in November 2009,
σσ     A joint investigation between OIG and the FBI identified a                  was sentenced to 60 days in prison and ordered to pay
       small Somali-owned store in Ypsilanti, Michigan, engaged                    restitution in the amount of $97,865 to USDA, HUD, and
       in SNAP and WIC benefit trafficking. The defendants                         the U.S. Department of Health and Human Services.




                                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half        11
                                                                      Goal 2




σσ    A series of SNAP benefit recipient fraud investigations              being adequately performed. Furthermore, the AIPs are not
      conducted throughout the State of Montana have been                  submitting summaries of the results of their acreage report field
      brought to a successful conclusion. As previously reported           reviews in a timely manner, with the required information,
      in the SARC for the first half of FY 2009, the investigations
                                                                           in a consistent format that would enable an RMA program
      were conducted under the oversight of the U.S. Attorney’s
                                                                           reviewer to compare results among different AIPs. Also, RMA
      Office in an effort to combat SNAP fraud in Montana. The
      investigations disclosed that 11 different recipients made
                                                                           is not tracking the receipt of these summaries, reviewing them,
      false statements to the Montana Department of Public                 and determining if they indicate any problematic trends. While
      Health and Human Services (MDPHHS) over a 5-year                     RMA has a number of quality control reviews that would apply
      period, and as a result, received a total of $151,305 in             to GRP and GRIP policies after indemnities have been paid, the
      benefits to which they were not entitled. All 11 individuals         AIPs’ summaries of “acreage report field reviews” are RMA’s
      ultimately pled guilty to Federal charges of making false            only way to monitor how the AIPs are administering these
      statements.                                                          policies before indemnities are paid. By not reviewing them,
      Sentences for the 11 individuals ranged between 36 to                RMA is restricting its oversight, limiting itself to attempting to
      72 months of probation, 6 months home confinement to                 correct errors after they have been made, rather than preventing
      24 months in prison, and restitution amounts between                 any potential overpayments.
      $5,520 and $35,064. The most egregious case involved an
      MDPHHS employee who failed to disclose her total income
                                                                           We recommended that RMA (1) notify the AIPs in writing
      in order to receive SNAP benefits. She was sentenced to              that they are required to physically verify the crops they have
      serve 24 months in Federal prison, followed by 36 months             insured as part of the acreage report field reviews, (2) issue
      probation, and was ordered to pay restitution of $9,282 to           clarification to the AIPs regarding how they are to select
      MDPHHS.                                                              GRP and GRIP policies for acreage report field reviews, (3)
                                                                           develop procedures for tracking the receipt of acreage report
RMA and AIPs Need to Strengthen Controls Over
                                                                           field review summaries to ensure that each AIP is submitting
Group Risk Plan (GRP) and Group Risk Income                                timely, complete, and accurate information, and (4) develop
Protection (GRIP) Policies                                                 procedures for reviewing the information AIPs submit. RMA
RMA and AIPs offer producers the option of choosing many                   agreed with our recommendations. (Audit Report 05601-14-
different insurance products. For Group Risk Plan (GRP) and                Te, Group Risk Crop Insurance)
Group Risk Income Protection (GRIP) policies, producers are
indemnified if the county’s actual yield for the year falls below
                                                                           Owner of a Management Company Pleads Guilty to
the county’s historical yield. This payment is made regardless of
                                                                           Theft of Government Funds
the individual farmer’s yield, which could be above or below the           From 2003 through 2006, a management company owner, who
county yield. Of the 15 AIPs that participated in the program              managed eight Rural Rental Housing apartment complexes
in crop years 2005 and 2006, we visited 4 of them, who were                located in Mississippi and Alabama, illegally obtained over
insured for $4.4 of $10.3 billion (43 percent). They paid $87.5            $300,000 held as Rural Development security from the bank
of $223.8 million (39 percent) in indemnities on 6,504 of                  accounts of Rural Rental Housing apartment complexes. In
14,943 indemnified policies.                                               January 2010, the owner, who had previously pled guilty
                                                                           was sentenced to serve 27 months in prison, 36 months of
For GRP and GRIP policies, we found that AIPs are not                      probation, and ordered to pay $101,033 in restitution.
required to verify any of the producers’ data at signup or
                                                                           Substandard Loan Not Eligible for Guarantee
before acceptance of the insurance policy. They are only
required to self-certify the acreage they have planted, and are            USDA’s Rural Business-Cooperative Service (RBS) asked
not required to file a loss claim. An AIP’s only opportunity               OIG to review the loan portfolio of one of its lenders because
to verify that producers have accurately self-certified their              of the elevated default rates of its loans. One borrower is a
acreage is the acreage report field reviews, which were not                textile company based in Pulaski County, Virginia. The lender
                                                                           obtained a loan note guarantee of 90 percent on a $5 million




12     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                   Goal 2




loan. The loan funds were to be used for refinancing prior              these two issues during our continued review of the Recovery
debts on equipment and real estate, and for paying closing              Act B&I Guaranteed Loan Program. (Audit Report No.
costs. Although this loan should have been classified as                34099-12-Te, Review of Lender with Business and Industry
substandard and thus not eligible for a Business and Industry           Guaranteed Loan in Louisiana)
(B&I) guarantee, the lender did not misrepresent or conceal             RECOVERY ACT REVIEWS
significant deficiencies in the borrower’s financial position
and the decreasing value of the borrower’s assets. The Virginia         Direct Farm Operating Loan Compliance
State Rural Development Office was aware of this, but                   Procedures Could Be Improved to More Timely Detect
granted the lender a 90-percent B&I guarantee upon receiving            Ineligible Borrowers
approval from the RBS national office. We did not make any              The Recovery Act authorized over $173 million for FSA to
recommendations; however, we strongly suggest that RBS                  fund direct farm operating loans. OIG’s role, as mandated by
reconsider approving future loans with problems of this size            the Recovery Act, is to oversee agency activities and to ensure
and scope. (Audit Report No. 34099-10-Te, Review of Lender              funds are expended in a manner that minimizes the risk of
with Business and Industry Guaranteed Loan in Virginia                  improper use. During this phase, we evaluated the Agency’s
                                                                        policies, procedures, and internal controls in distributing
Control Weaknesses Provide Opportunities for
                                                                        Recovery Act funds.
Guarantees on Ineligible Loans
RBS identified a lender with a history of known defaults. At            We determined that FSA’s compliance review process could be
RBS’ request, we reviewed its loan portfolio, as well as a specific     improved to make timelier detections of ineligible borrowers.
borrower’s loan information. We found no misrepresentation              The current compliance procedures do not ensure that reviews
or negligent servicing by the lender, who obtained a loan note          of direct farm operating loans are performed during the early
guarantee of 80 percent on a $4 million loan and then disclosed         stages of the loan making process. In addition, given the
all required information to the RBS State office. All conditions        relatively small number of Recovery Act-funded direct farm
upon which the loan was approved were met by the date of                operating loans in the total population from which compliance
loan closing or within an acceptable timeframe.                         review samples are drawn, there is no assurance that FSA will
                                                                        sample a sufficient number of Recovery Act-funded loans
We identified two weaknesses in the B&I Guaranteed Loan                 to provide adequate assurance as to the accountability and
Program, however, that could put funds provided by the                  propriety of Recovery Act expenditures.
Recovery Act at risk. First, RBS continues to allow the use
of leasehold properties to be used as loan collateral. Second,          We recommended that FSA revise compliance review sampling
the Recovery Act prohibits borrowers from having any gross              procedures to ensure that adequate samples of Recovery Act-
income derived from gambling activities, whereas current                funded loans are selected for review. FSA agreed with our
B&I regulations allow income from such activities to be no              recommendation and took immediate corrective action. We
more than 10 percent. We recommended that RBS: (1) not                  plan to test the controls identified by FSA as we continue our
allow leasehold properties to be used as collateral for Recovery        assessment of the program. The second phase of this audit
Act loans and (2) require lenders and borrowers that receive            is currently ongoing to test compliance with the controls
Recovery Act funds to certify that none of the borrower’s               established by FSA. (Audit Report 03703-1-Te, American
income is derived directly or indirectly from gambling                  Recovery and Reinvestment Act – Direct Farm Operating
operations, in order to ensure that funds directed for the              Loans – Phase 1)
B&I Program are properly used. RBS did not concur with                  Administration of the Recovery Act’s Aquaculture
our recommendations and stated that their current internal              Grant Program Needed Improvement (Phase 1)
controls were sufficient on these issues of leasehold properties
                                                                        The Recovery Act included $50 million in grants to States to
and gambling revenues. They did, however, issue additional
                                                                        assist eligible aquaculture producers for losses associated with
guidance regarding the gambling issue. We agreed to assess




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         13
                                                                   Goal 2




high feed costs during the 2008 calendar year. We evaluated             administrative expenses to handle the anticipated increase
FSA’s internal controls to ensure that assistance provided under        in SNAP caseloads for the next 2 years, of which Congress
the Recovery Act to aquaculture producers is in accordance              appropriated $290.5 million to the States. Our audit was
with program requirements. We conducted oversight activities            limited to the remaining portion of these funds ($4.5 million)
to assess early implementation of the program. We identified a          that was appropriated for FNS management and oversight of
number of policy and internal control weaknesses that required          SNAP and for monitoring the integrity and evaluating the
immediate corrective actions by FSA program officials; for              effects of payments made under the Recovery Act. We found
example, we recommended a number of changes to strengthen               that FNS officials’ plans for using the oversight funds – $4.35
procedures in the Memorandum of Agreement between FSA                   million for two studies focused on Recovery Act outcomes and
and State agencies.                                                     $150,000 for financial management reviews – were allowed by
                                                                        the provisions of the Recovery Act. (Audit Report 27703-1-
During this first phase of our review of the aquaculture grant
                                                                        Hy, Funds Provided by the Recovery Act for Management and
funds, we issued 2 interim reports which included a total of
                                                                        Oversight of SNAP)
16 recommendations for strengthening program procedures.
FSA officials generally agreed with our findings and immedi-            FNS Should Take Steps to Improve its Oversight of
ately took corrective action. The findings and recommenda-              The Emergency Food Assistance Program
tions, and the agency’s response from the interim reports, are
                                                                        FNS operates The Emergency Food Assistance Program
summarized in this final report. The second phase of this audit
                                                                        (TEFAP), which is designed to supplement the diets of low-
is currently ongoing to test compliance with the internal con-
                                                                        income Americans by providing emergency food and nutrition
trols established by FSA. (Audit Report 03703-1-Ch, Controls
                                                                        assistance at no cost. Under TEFAP, USDA buys, processes,
over Aquaculture Grant Recovery Act Funds – Phase 1)
                                                                        packages, and ships food to individual States. The Recovery Act
Thrifty Food Plan Provides a Healthy Baseline for                       provided $150 million in additional funds to the program.
Establishment of SNAP Benefits                                          We found that FNS was not frequently or consistently
The Recovery Act provided for an increase in SNAP benefits              reviewing States’ operation of TEFAP. Of the 55 States and
equal to 1.136 times the level of the Thrifty Food Plan (TFP)           territories administering TEFAP, FNS had not performed
as established in June 2008. The USDA Center for Nutrition              a management review of 25 since FY 2005. In addition,
Policy and Promotion is responsible for development and                 FNS regional offices reviewed their States and territories
maintenance of the TFP, one of four food plans designed to set          inconsistently. FNS officials believed there was a low risk
forth healthy, nutritious diets at corresponding levels of cost.        of fraud, waste, and abuse in the program, as TEFAP had
We performed an audit that focused on the legislated increase           significantly fewer dollars than other FNS programs. However,
in SNAP benefits and the role of the TFP in supporting                  FNS’ low risk determination was not supported, given the fact
such an increase. We examined the food consumption and                  that management evaluations were not performed frequently
corresponding price data used in establishing the most recent           or consistently. Moreover, given the oversight requirements of
update of the TFP and found no reportable concerns. The                 the Recovery Act, FNS needs to scrutinize TEFAP on a regular
legislated increase in SNAP benefits was not related to an              basis. In light of its limited resources, FNS agreed to explore the
update or adjustment of the TFP. (Audit Report 27703-1-KC,              use of a risk-based approach to identifying State agencies that
SNAP Benefits and the Thrifty Food Plan)                                should receive priority attention for management evaluations
                                                                        and to develop guidance regarding the use of the management
The Food and Nutrition Service (FNS) Intends to
                                                                        evaluation module to avoid inconsistency. FNS generally agreed
Use Recovery Act Funds for SNAP Oversight in
                                                                        with the finding and recommendations. (Audit Report 27703-
Accordance with the Act                                                 1-At, Review of FNS’ Controls Over TEFAP - Phase I)
We performed an audit of FNS’ use of funds provided by
the Recovery Act for management and oversight of SNAP.
The Recovery Act provided $295 million in additional




14     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                    Goal 2




FNS Did Not Timely Report Significant Recovery Act                       We recommended that FS require contracting officials to
Budget Estimates for SNAP                                                reconcile information posted on FedBizOpps to contract
                                                                         information in its procurement system, supervisory contracting
Due to the lack of Departmental guidance, FNS did not
                                                                         officials review accuracy of contract information posted on
report a significant change in budget estimates for SNAP in a
                                                                         FedBizOpps, and contracting officials verify that contractors
timely manner. It did not report on its Recovery Act website
                                                                         have an acceptable past performance rating prior to awarding
an additional $28 billion that would be needed to fund SNAP
                                                                         contracts. FS agreed to take corrective actions based on our
until January 2010, even though the need for this additional
funding was determined in June 2009. When the Recovery                   finding and recommendations. Recovery Act Fast Report (Audit
Act was passed in February 2009, the estimated increase in               Report 08703-1-Hy (1), Oversight and Control of Forest
benefits totaled more than $19.8 billion. This amount was                Service American Recovery and Reinvestment Act Activities)
also included in FNS’ Recovery Act Plan, dated May 2009.                 Incorrect Procedures Provided to Report Award of
However, in June 2009, FNS estimated the increase in benefits            Recovery Act Funds and Project Selections Based on
would be $48 billion. The need for this additional funding               Environmental not Economic Factors
was determined in June 2009 when the agency developed
                                                                         NRCS received $145 million for its Watershed Protection and
estimates reported as part of the midsession review of the
budget of the U.S. Government. At that time, FNS did not                 Flood Prevention Operations Program (Watershed Operations),
report the need for increased funding for SNAP benefits on               which provides financial and technical assistance for watershed
Recovery.gov or websites maintained by the agency or USDA                protection, flood mitigation, and water quality improvements.
related to the Recovery Act. The amount of benefits funded               NRCS records show that 80 projects, totaling $127 million,
through the Recovery Act further increased when estimated                were selected for funding. Although NRCS issued guidelines
for the FY 2011 budget. According to FNS, Recovery Act                   to award recipients regarding their reporting requirements,
funding for SNAP is estimated to total $65.8 billion through             they were not specific enough. OMB requires that recipients
FY 2019. We recommended that the Department establish a                  report to a designated Web site – www.FederalReporting.gov
process for consistently and timely reporting changes in budget          – the amount of the award, the amount they received, and
estimates for all USDA programs that received Recovery Act               the amount they spent. If recipients have received or spent no
funding. The Department generally agreed with our finding                funds, then OMB requires that they report zeroes. Reporting
and recommendation. Recovery Act Fast Report (Audit Report               no funds received or spent is important because it will enable
27703-2-At (1), Recovery Act Impacts on SNAP)                            OMB and others to judge the speed at which funds are being
                                                                         sent out and spent. OIG recommended NRCS provide
Forest Service Needs to Strengthen Controls Over
                                                                         clear direction to the State offices that conforms to OMB’s
Recovery Act Contracting Activities
                                                                         requirements on how recipients are to report on the amounts
RATB referred nine Recovery Act contracts due to concerns                they are awarded, but have not yet received. NRCS concurred
with information FS posted on the public website, Federal                that a correction was needed and issued a bulletin regarding
Business Opportunities (FedBizOpps). We found that FS needs              proper reporting procedures.
to reconcile contract information posted on FedBizOpps with
                                                                         As we reported in our second interim report, NRCS based its
information posted on their internal procurement systems. The
                                                                         decision on which projects would be funded on environmental
agency posted inaccurate information for all nine contracts
                                                                         benefits generated by the project rather than economic
reviewed. Inaccuracies included incorrect names and addresses
                                                                         factors such as job creation in areas of high unemployment.
for contracting staff, incomplete descriptions of projects, and
                                                                         Specifically, NRCS stated on its recovery website and
improperly recorded work performance reports. In addition,
                                                                         implementation plan that the main factors considered when
the agency did not post the information for seven of the nine
                                                                         selecting projects for Recovery Act funding were ones to
contracts in a timely manner. We also found FS needs to
                                                                         promote economic recovery in areas most affected by the
improve its review of the work the contracting staff performs to
                                                                         recession and create or retain jobs in economically distressed
ensure that the staff considers past performance ratings prior to
                                                                         areas. After analysis of both projects selected for funding and
awarding contracts.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half      15
                                                                       Goal 2




those that were not funded, we concluded this was not the                   purchases of floodplain easements or to establish value for
case. There was not an apparent effort to fund projects in                  easement acquisition. We found that NRCS procedures do
economically distressed areas.                                              not address many important factors regarding acquisition
                                                                            of these homes. We recommended that NRCS re-evaluate
Prior to the Recovery Act, NRCS had 219 environmentally
                                                                            this approach and, if used, establish additional procedures to
sound project agreements, totaling about $308 million, awaiting
                                                                            address purchasing easements on small parcels of land where
funding. NRCS officials indicated their main objective was to
                                                                            acquisition and demolition costs for the homes are the prime
get projects started quickly. In fact, over a third of the allocated
                                                                            cost. NRCS indicated that it reviewed the policies authorizing
Recovery Act funds (75 projects, totaling about $59 million)
                                                                            purchase of easements on small tracts of land with existing
went to communities whose unemployment rates were lower
                                                                            structures and determined that the purposes of the program
than the national average while 45 projects, totaling about
                                                                            were met. It agreed to establish standard operating procedures
$97 million, were not funded at all, despite being located in
communities whose unemployment rates were greater than the                  for purchasing easements on small parcels with structures and
national average.                                                           incorporate these procedures into the program manual.

We recommended that NRCS provide clarification on the                       Our second interim report found that when NRCS received
Recovery website and to the Department that details the                     Recovery Act funds, it used the same method for determining
actual methodology used to analyze projects for Recovery Act                easement value that it uses under Wetlands Reserve Program
funding, and that it provide justification for funding the 75               (WRP). NRCS based its use of the WRP methodology for
projects approved in locations where unemployment rates                     Recovery Act funded transactions because of a determination
were less than the national average. NRCS responded that it                 that it was unable to meet the time constraints of Recovery Act
adequately addressed the applicable Recovery Act priorities                 using the normal appraisal process, but the NRCS decision
when selecting projects. NRCS will consider communities and                 did not include any data or documentation about the time
citizens impacted when funding new projects with withdrawn                  line of the normal appraisal process to support its decision.
and unused funds. NRCS generally disagreed with our                         NRCS consulted with OGC, but had not adequately addressed
findings but agreed to prioritize the selection of any new (or
                                                                            their concerns over the valuation methodology adopted for
replacement) projects in economically distressed areas. NRCS
                                                                            easements acquired through the Floodplain Easement Program.
continues to assert that while the primary project selection
factors were related to “shovel readiness” its selection was in             OGC stated that NRCS might be able to make a finding
accordance with Recovery Act’s specific statutory mandates                  that using the NRCS normal appraisal process is “NOT to
and the methodology it followed was appropriately represented               the greatest extent practicable,” and it would be prudent for
in its implementation report. Recovery Act Fast Reports                     NRCS to document how it arrived at its decision. OGC also
(Audit Report 10703-2-KC, Watershed Protection and Flood                    noted that NRCS’s decision to use the WRP methodology for
Prevention Operations Program 10703-2-KC (1-2)).                            the existing Emergency Watershed Protection Program (non-
                                                                            Recovery Act) may require legislative action.
NRCS Program Decisions to Purchase Easements on
Small Tracts of Lands and Valuation Methodologies                           We recommended that NRCS stop approving further easement
Used To Compensate Landowners Questioned                                    option agreements until it demonstrates that the required
                                                                            appraisal method is not practicable for easements funded
The Recovery Act provided $145 million to NRCS so that the
                                                                            through the Recovery Act. NRCS submitted that its decision
agency, through its Emergency Watershed Protection Program,
                                                                            adopting an alternative easement compensation methodology
could purchase easements on floodplain lands that have been
                                                                            is justified because the use of extensive individual appraisal
recently flooded or that have a history of repeated flooding. In
                                                                            procedures prevents it from meeting the strict timeframes
June 2009, 289 applications, totaling $138 million,
                                                                            required by the Recovery Act. NRCS agreed to place a
were approved.
                                                                            temporary hold on the use of the WRP valuation methodology
As reported in the SARC, Second Half of 2009, we found                      for regular funding (non-Recovery Act) easements and is
that NRCS does not have adequate procedures to conduct                      currently discussing, with OGC, the appropriate valuation




16      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                    Goal 2




procedures for the floodplain easement programs. (Audit                 substantially reduce the loss payment, due to a lender’s failure
Report 10703-1-KC, Emergency Watershed Protection                       to exercise due diligence in ensuring that the construction of
Program 10703-1-KC (2))                                                 a facility was properly planned, designed, and equipped with
                                                                        available funding to produce the quantities of the product
Controls Over Grant Eligibility and Servicing for
                                                                        sufficient to make loan payments. The previous regulation held
Rural Business Enterprise Grants (RBEG) Recovery
                                                                        lenders liable only for negligent servicing, not loan origination.
Act Funds
                                                                        With the available program level of $1.6 billion to support loan
The Recovery Act includes $20 million for RBS to provide
                                                                        guarantees for RBS’s B&I Guaranteed Loan Program under
RBEG funds for rural projects. Before issuance of any
                                                                        the Recovery Act, it is essential that RD mitigate potential
Recovery Act RBEGs, we reviewed the internal controls
                                                                        losses by addressing these areas of concern. Therefore, we
over the RBEG program. In two prior interim reports, we
                                                                        recommended that RD issue directives to address these prior
reported that some recipients of RBEG grants were not
                                                                        recommendations and the risks associated with them until
submitting quarterly performance reports, while others
                                                                        more permanent action can be taken. RD agreed with us and
submitted inadequate ones. Without these reports, RBS cannot
                                                                        issued administrative notices as a temporary corrective action
determine if project goals are being met. We also reported that
                                                                        in November 2009. (Audit Report No. 34703-1-Te, American
State offices had not ensured that grant recipients submitted
                                                                        Recovery and Reinvestment Act – Business & Industry
required documentation to support grant expenditures. We
                                                                        Guaranteed Loans Phase 1)
recommended that RD provide additional training to the States
to clarify and reinforce the quarterly reporting requirements,          Rural Housing Service (RHS) Should Establish
develop a formal process for monitoring the submission of               Stronger Controls for Single Family Housing (SFH)
quarterly reports, ensure that each State adheres to reporting          Direct Loans
requirements, assess all RD State and area offices to determine
                                                                        USDA’s RHS received approximately $1.2 billion in Recovery
whether adequate documentation is obtained from RBEG
                                                                        Act funding to directly finance housing loans for low-income
recipients, and develop additional guidance to define the type
                                                                        and very low-income individuals living in rural areas. As part of
of support necessary for grant-related reimbursement. RD
                                                                        our ongoing Recovery Act oversight efforts, we assessed RHS’
agreed with the issues reported and has agreed to take corrective
                                                                        internal controls over SFH Program Direct Loan Recovery Act
actions to address our concerns. (Audit Report 34703-1-KC,
                                                                        funding and identified several concerns that we reported to the
Rural Business Enterprise Grants)
                                                                        agency in three fast reports.
B&I Guaranteed Loan Recommendations Left                                We identified additional performance measures that RD could
Unresolved Due to Withdrawal of Interim Rule                            be tracking and reporting to better define its accomplishments
The Recovery Act authorized the funding of B&I loan                     in meeting the goals of the Recovery Act. We noted that RD
guarantees under USDA’s Rural Development (RD). To assist               had established only one measure of performance for Recovery
RD in achieving its Recovery Act objectives and to minimize             Act-related SFH Direct Loan Program activity. From interviews
the risks of inefficient or improper actions that could put             with RHS State officials, we identified several additional
taxpayers’ money at risk, we reviewed outstanding prior audit           performance measures that potentially would better reflect the
recommendations that could impact internal controls over                agency’s success in meeting the goals of the Recovery Act. RHS
Recovery Act funds. We identified two audit recommendations             agreed to establish two additional performance measures to
left unresolved due to the withdrawal of an interim rule by             reflect the agency’s success.
the agency. In a previous audit released in December 2002,
                                                                        Although the Recovery Act almost doubled the funding
we recommended that RD coordinate with OGC to develop
                                                                        for SFH Direct Loans, the RD national office has not
and implement a process to provide a realistic discount for
                                                                        specified—nor have the State offices adopted—any additional
the value of collateral for certain industries and specialized
                                                                        compliance activities to review the quality of loan underwriting
equipment. In another report issued in 2003, we recommended
                                                                        for Recovery Act loans. In addition, the States we visited
that RD consult with OGC to rescind a loan note guarantee or




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         17
                                                               Goal 2




were not effectively performing loan underwriting reviews of       mitigate staff shortages in RD’s SFH Direct Loan Program.
delinquent loans. To address these concerns, RD agreed to          We also found areas where RD could optimize the use of
establish a formal process for monitoring and ensuring that        current field office staff. State office officials we interviewed
each State performs underwriting reviews at least quarterly.       foresee difficulties in processing the direct loans funded by the
RD will perform an improper payment review nationwide              Recovery Act because of the shortage of qualified, experienced
to immediately assess the quality of loan underwriting for         staff. RD agreed to require State offices to develop and
Recovery Act loans to ensure the proper and prudent use of         implement an effective plan to use the available administrative
these funds.                                                       funding and consider additional ways to optimize the use of
                                                                   current staff resources. (Audit Report 04703-1-KC, Single
We further determined that State offices are not fully using
                                                                   Family Housing Direct Loans Stimulus Controls)
administrative cost funds provided by the Recovery Act to




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                 Goal 2




GOVERNMENTWIDE ACTIVITIES – GOAL 2                                        σσ   Re-negotiation of the Standard Reinsurance Agreement
                                                                               (SRA). On January 19, 2010, OIG provided written
Review of Legislation, Regulations, Directives,                                comments to RMA for its consideration in the draft
and Memoranda                                                                  SRA. Overall, we concurred with the concept of
σσ   Non-Federal Employee Whistleblower Protection Act of                      linking a satisfactory performance record by the
     2009. OIG provided comments on S. 1745, which                             AIPs in order to obtain and hold a SRA through
     would, in part, amend section 315 of the Federal                          the reinsurance year. We also agreed with RMA’s
     Property and Administrative Services Act of 1949                          proposed approach for indexing the Administrative
     (41 U.S.C. § 265), by providing new whistleblower                         and Operation expense subsidy. We also provided
     protection rights for State, local, and private sector                    comments on the following topics: restructuring/
     contractor employees and establishing timeframes                          reduction in the available insurance funds;
     within which an IG must investigate and respond to                        consolidation of the residual fund; changes in the
                                                                               maximum premium cession limits; changes in the
     a complaint of reprisal submitted by these employees.
                                                                               disbursement of net book quota share; and proposed
     OIG raised a concern that the whistleblower provisions
                                                                               changes in the policies and procedures in Appendix
     in the bill could divert IG oversight resources away
                                                                               IV, Quality Standards and Controls, with the intent
     from the more urgent and higher impact investigations
                                                                               of strengthening these management controls. We
     and reviews that are desired by Congress and achieve
                                                                               are reviewing and plan to comment on the proposed
     broader, more beneficial results for the public.
                                                                               changes in the second draft. We also plan to issue a
Reviews Coordinated with Other                                                 rollup report on the proposed changes to the SRA after
Government Entities                                                            RMA completes the renegotiation process.
σσ   Questionable Activities Under the Biomass Crop                       Participation on Committees, Working Groups,
     Assistance Program. OIG met with FSA officials to                    and Task Forces
     discuss their concerns relating to potentially illegal
                                                                          σσ   USDA OIG led a CIGIE review to examine whether
     activities under the Biomass Crop Assistance Program                      agency Web sites meet OMB guidance on providing
     (BCAP), particularly under the Collection, Harvest,                       easy Internet access to (1) mechanisms for reporting
     Storage and Transportation (CHST) Matching                                fraud in agency Recovery Act programs to the
     Payments Program of BCAP. Agency officials had                            cognizant OIG and (2) access to OIG Recovery Act
     received reports of questionable financial transactions                   reports. The report found that 93 percent (28 of 30)
     involving biomass conversion facilities and material                      of the agencies reviewed did maintain Recovery Act
     owners. In addition to requesting that OIG initiate                       Home pages that met these requirements. The report
     an audit of BCAP, which is currently ongoing, agency                      also found that 87 percent (26 of the 30) of the OIGs
     officials solicited suggestions for interim measures that                 with oversight responsibilities under the Recovery Act
     FSA could undertake to minimize or reduce potential                       follow the spirit of this guidance (although it does not
     abuse of BCAP. OIG suggested a number of interim                          directly apply to the OIGs) by having a direct link
     measures to reduce the vulnerability of BCAP to abuse.                    from the OIG’s homepage to an OIG Recovery Act
     The meeting resulted in FSA issuing Notice BCAP-8,                        page with mechanisms for reporting fraud, as well
     on January 6, 2010, to their State and county offices                     as access to OIG Recovery Act reports. The report
     regarding these questionable activities. It provided                      contains no formal recommendations. During CIGIE’s
     clarification about BCAP policies, defined an “arm-                       consideration of the draft of this report, many OIGs
     length transaction,” and instructed their offices to                      and/or their agencies made updates to their respective
     report possible fraud, waste, and abuse to OIG. In                        Recovery Act Web sites. These updates were taken into
     early February, OIG initiated an audit of the BCAP                        account in preparation of the final report.
     Collection, Harvest, Storage and Transportation                      σσ   Work continues on investigations opened by OIG
     Matching Payments Program.                                                Special Agents who have been participating in




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half          19
                                                                    Goal 2




       Hurricane Katrina/Rita Fraud Task Forces. From                             farm equipment stolen from farmers, stolen property
       November 1, 2005, to date, OIG has conducted 96                            trafficking, and dogfighting.
       cases in which FNS, FSA, RD, and other Federal                        σσ   One OIG investigator is participating part-time with
       agencies have been defrauded by individuals who                            the Indianapolis Metropolitan Police Department
       submitted false claims or provided false statements                        (IMPD) and Indianapolis Animal Care and Control
       to obtain Federal benefits. During that period,                            (IACC) in Indianapolis, Indiana. The task force
       139 individuals have been indicted, 101 have been                          is investigating illegal animal fighting, including
       convicted, and fines and restitution thus far have                         dogfighting and cockfighting.
       totaled $1,586,963 respectively.                                      σσ   OIG investigative personnel are participating on
 σσ    OIG investigators are participating on a Bridge                            Mortgage Fraud Task Forces in the Eastern District of
       Card Enforcement Team (BCET) task force to                                 California in the Sacramento and Fresno areas and in
       investigate criminal violations of SNAP and the                            the Eastern District of Michigan in the Detroit area.
       Special Supplemental Nutrition Program for Women,                          These task forces are intended to improve information
       Infants, and Children (WIC). Members include the                           sharing and coordination of investigative efforts
       Michigan State Police and IRS-CI . The FBI, Social                         among agencies with ongoing or potential involvement
       Security Administration OIG, and DHS’ Immigration                          in work related to mortgage fraud. The task forces
       and Customs Enforcement have provided assistance                           are headed from representatives from the U.S.
       during warrant operations. The initiative, which                           Attorney’s Office and the FBI. Among other agencies
       has been operational since 2007, has resulted in 89                        participating are the U.S. Department of Housing
       arrests and 107 search warrants served throughout                          and Urban Development, IRS, the Social Security
       the State of Michigan. Criminal prosecutions are                           Administration, local District Attorney’s offices, a
       being pursued through the United States Attorney’s                         United States Bankruptcy Trustee’s Office, and a local
       Office for the Eastern District of Michigan and the                        police department.
       Michigan Attorney General’s Office. The cases so far                  ONGOING AND PLANNED REVIEWS FOR GOAL 2
       have resulted in 78 guilty pleas, and sentences which
       included incarceration, fines, and restitution. Forfeiture            Topics that will be covered in ongoing or planned
       actions of over $2 million have been initiated by the                 reviews under Goal 2 include:
       United States Attorney’s Office. The taskforce will                   σσ   CACFP follow up (FNS),
       continue through FY 2010.                                             σσ   status of improper payment information
 σσ    Two OIG investigators are also participating part-time                     reporting (FNS),
       with the U.S. Marshals Service on the Southern Ohio                   σσ   citrus indemnity payments resulting from 2005
       Fugitive Apprehension Strike Team (SOFAST) in both                         Florida hurricanes (RMA),
       Columbus and Cincinnati, Ohio. They are helping
                                                                             σσ   USDA payments for 2005 citrus canker
       to locate and arrest fugitives by comparing fugitive
                                                                                  losses (RMA, APHIS),
       identification information against the list of SNAP
       recipients.                                                           σσ   NASS establishment of average yields (NASS),

 σσ    An OIG investigator is participating on the Ohio Or-                  σσ   oversight of AIPs quality control process (RMA),
       ganized Crime Investigations Commission (OOCIC)                       σσ   controls over the use of new producer designation by
       Task Force in Dayton. OOCIC provides assistance to                         AIPs (RMA),
       local law enforcement agencies in the investigation of                σσ   controls over Pasture, Rangeland, and Forage Pilot
       organized criminal activity. OIG investigators have                        Program (RMA),
       participated in the OOCIC Dayton Task Force since
                                                                             σσ   Biotech Yield Endorsement Pilot Program (RMA),
       1996 and have conducted investigations involving wel-
       fare recipients, SNAP benefits trafficking, mortgaged                 σσ   Catastrophic Risk Protection Program (RMA),




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                  Goal 2




σσ    oversight of organic crop insurance insureds (RMA),                  σσ    direct farm operating loans (Phase 2) (FSA),
σσ    WIC vendor monitoring (FNS),                                         σσ    controls over Aquaculture Grants (Phase 2) (FSA),
σσ    2008 Farm Bill’s changes to payment limitation (FSA),                σσ    monitoring implementation of trade adjustment
σσ    Biomass Crop Assistance Program: Collection, Harvest,                      assistance for farmers (Foreign Agricultural Service
      Storage, and Transportation Matching Payments                              (FAS), FSA, Economic Research Service, ARS, and the
      Program (FSA),                                                             National Institute for Food and Agriculture (NIFA),

σσ    Conservation Reserve Program soil rental rates (FSA),                σσ    FS administration of grants (FS),

σσ    Emergency Conservation Program (ECP) - emergency                     σσ    FS capital improvement and maintenance (FS),
      disaster assistance for the 2008 natural disasters (FSA),            σσ    wildland fire management (FS),
σσ    verification of income eligibility for program                       σσ    Rural Business Enterprise Grants (RBS),
      payments (FSA) ,                                                     σσ    B&I loan guarantees (RBS),
σσ    Farm Storage Facility Loan Program (FSA),                            σσ    rural communities facilities loans and grants (RHS),
σσ    Rural Rental Housing (RRH) Program construction                      σσ    controls over single-family housing (SFH) direct loans
      costs (RHS),                                                               recovery act funds (RHS), and
σσ    controls over expenditures in Water and Waste                        σσ    controls over water and waste disposal loan and grant
      Disposal Grants – Alaska (RUS),                                            program (RUS).
σσ    intermediary re-lending program (RBS),
                                                                           The findings and recommendations from these efforts will
σσ    RRH maintenance costs and inspection                                 be covered in future Semiannual Reports as the relevant
      procedures (RHS),                                                    audits and investigations are completed.
σσ    controls over rural housing disaster assistance payments
      (RHS), and
σσ    review of distance learning and telemedicine grants
      (RUS).
The findings and recommendations from these efforts will
be covered in future Semiannual Reports as the relevant
audits and investigations are completed.

ONGOING AND PLANNED REVIEWS FOR GOAL 2
UNDER RECOVERY ACT FUNDS
Topics that will be covered in ongoing or planned
reviews for Goal 2 under Recovery Act include:
σσ    WIC contingency funding (FNS),
σσ    Recovery Act impacts on SNAP (FNS),
σσ    controls over TEFAP – Phase II (FNS),
σσ    State fraud detection efforts for SNAP (FNS),
σσ    equipment grants for child nutrition programs (FNS),
σσ    equipment grants for the Food Distribution Program
      on Indian Reservations (FNS),
σσ    controls over outsourcing of SNAP EBT customer
      assistance (FNS),




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half             21
                                                                     Goal 3




Management Improvement Initiatives
OIG Strategic Goal 3:                                                     EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
                                                                          FOR GOAL 3
Support USDA in implementing its management
improvement initiatives.                                                  Although Improvements Have Been Made in IT
                                                                          Security, Many Longstanding Weaknesses Remain
OIG conducts audits and investigations that focus on such
areas as improved financial management and accountability, IT             We found that improvements have been made in the
security and management, research, real property management,              Department’s IT security. For example, the Department is
employee corruption, and the Government Performance                       continuing to implement the Cyber Security Assessment
and Results Act. Our work in this area is vital because the               Management System to manage USDA’s IT system inventory
Department is entrusted with $128 billion in public resources             and track related system security threats and risks. However,
annually. The effectiveness and efficiency with which USDA                in order to mitigate the continuing material weaknesses
manages its assets are critical. USDA depends on IT to                    that we have noted since FY 2001, we recommended that
efficiently and effectively deliver its programs and provide              the Department and its agencies work in cooperation to
meaningful and reliable financial reporting. One of the more              define and accomplish one or two critical objectives prior to
significant dangers USDA faces is a cyber attack on its IT                proceeding on to the next set of priorities. The Department
infrastructure, whether by terrorists seeking to destroy unique           then needs to systematically mitigate the risks, set realistic
databases or criminals seeking economic gains.                            goals and milestones, and continuously communicate with
                                                                          agencies to maintain their commitment to, and progress
In the first half of FY 2010, we devoted 30 percent of our                towards, implementing the needed corrective actions. Until
total direct resources to Goal 3, with 96.7 percent of these              this occurs, critical data may be exposed to an increased risk
resources assigned to critical/high-impact work. A total of 94.6          of inappropriate disclosure, modification, or deletion because
percent of our audit recommendations under Goal 3 resulted                of USDA’s current security program. OCIO concurred with
in management decision within 1 year, and 75 percent of our               our recommendations and is in the process of implementing
investigative cases resulted in criminal, civil, or administrative        corrective action. (Audit Report 50501-15-FM, U.S.
action. OIG issued 13 audit reports and 1 Recovery Act                    Department of Agriculture, Office of the Chief Information
fast report under Goal 3 during this reporting period. OIG’s              Officer, Fiscal Year 2009 Federal Information Security
investigations under Goal 3 yielded 7 indictments, 12                     Management Act Report)
convictions, and $57.1 million in monetary results during this
reporting period.




  Management Challenges Addressed UNDER GOAL 3
  σσ     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1, 2, and 4)
  σσ     Implementation of Strong, Integrated, Internal Control Systems Still Needed (also under Goal 2)
  σσ     Continuing Improvements Needed in IT Security (also under Goal 1)
  σσ     Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
  σσ     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
         (also under Goal 1)
  σσ     Better FS Management and Community Action Needed To Improve the Health of the National Forests and Reduce the Cost of
         Fighting Fires (also under Goals 1 and 4)




22     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                      Goal 3




FS Needs to Better Manage Contract Labor Crews                             FS Employee Sentenced for Soliciting Child
Used to Fight Forest Fires                                                 Pornography with Government Computer
We identified inefficiencies in how FS managed its contracted              In October 2009, a Forester with the FS pled guilty in U.S.
firefighting labor crews. We found that they did not have                  District Court, Northern District of California to attempted
an annual pre-fire process to analyze data from previous fire              receipt of child pornography. The employee admitted to using
seasons and identify trends on how firefighting labor crews                his Government computer to solicit and purchase images of
are utilized in conjunction with other resources. We also                  child pornography. He also admitted to storing images of child
found that FS lacked reliable estimates for its firefighting crew          pornography on a personally owned computer. On January 12,
costs. Without seasonal trend analysis and reliable firefighting           2010, he was sentenced to 70 months in Federal prison,
estimates, FS management is limited in determining the most                60 months supervised release, and a $100 special assessment. This
efficient and effective variations of firefighting resources, which        was a joint investigation with the U.S. Postal Inspection Service.
could ultimately affect the agency’s ability to fight fires. As a
                                                                           Former RD State Director for Mississippi Pleads
result, we recommended that FS develop and implement an
                                                                           Guilty to Ethics Violations
annual pre-fire season analysis process that would assist in
determining the most effective mix of in-house and contract                In August 2006, shortly after leaving his position with
crews needed to suppress fires. In addition, FS should identify            USDA and while employed as a financial consultant working
all direct and indirect costs associated with the different types          on behalf of a regional medical center, a former RD State
of firefighting crews. By establishing annual pre-fire season              Director submitted an $11 million community facilities loan
analysis and capturing important cost data, FS could better                application for the medical center to RD. In December 2009,
estimate the suitable number and type of available contracted              in the Southern District of Mississippi, Jackson, the former
labor crews needed to maintain adequate firefighting capacity.             RD State Director, was sentenced on one count of violating
To further ensure that these evaluations and analysis provide              post-employment conflict-of-interest restrictions on former
useful information, we recommended that FS establish clear                 employees of the Executive Branch. The court ordered him
and objective standards for evaluating the effectiveness of                to serve 36 months probation and to pay a $1,000 fine. As
firefighting crews and revise its current evaluation form to               a special condition of his probation, he was ordered by the
reflect the new standards.                                                 court for the first 12 months of his probation to have no direct
                                                                           communication with any Mississippi USDA office or agency.
We also found that FS lacked a process to determine whether
contractors are properly verifying that contract firefighters are          USDA FY 2009/2008 Consolidated Financial
legally authorized to work in the United States. Per our review,           Statements – Unqualified Opinion
we determined that at least 49 of the 60 contract employees,               The USDA FY 2009/2008 consolidated financial statements
hired by three separate contractors, had questionable                      received an unqualified opinion. USDA also received a
employment status that had not been properly verified. As a                clean opinion on its FY 2009/2008 special purpose financial
result, we recommended that as FS performs annual reviews                  statements. For internal control over financial reporting for
of contractors, it should also include procedures to determine             FY 2009, we identified two significant deficiencies, which we
whether contractors have verified employment eligibility of                believe are material weaknesses: improvements are needed in
their workers.                                                             overall financial management and in IT security and controls.
We are working with FS to reach agreement on the corrective                Our consideration of compliance with laws and regulations
action to take on these recommendations. FS concurred with 6               disclosed two instances of noncompliance relating to the
of our 10 recommendations. (Audit Report 08001-2-At, Forest                Federal Financial Management Improvement Act (FFMIA)
Service Contract Labor Crews)                                              and certain aspects of appropriation law. As discussed in its
                                                                           Federal Managers’ Financial Integrity Act of 1982 report, the
                                                                           Department has plans to address the majority of the weaknesses
                                                                           discussed in the report. The key recommendations in this report




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         23
                                                                      Goal 3




were limited to additional improvements needed in financial                σσ   FS – Unqualified Opinion in FY 2009/2008. In its
management with respect to obligations as well as required                      unqualified opinion, an independent certified public
system documentation for selected critical financial systems.                   accounting firm found that FS, as of September 30, 2009,
The Department generally agreed with the recommendations                        presented its financial position and related budgetary
                                                                                concerns in a fair and accurate manner. The firm also
and will develop corrective action plans.
                                                                                identified seven significant deficiencies in FS internal
In addition to auditing the Department’s consolidated and spe-                  controls: (1) IT control environment, (2) period-end
cial purpose financial statements, audits of six USDA agencies                  expense accrual processes, (3) procedures and analysis
were also performed. Details of these financial audits follow:                  to document and support management assumptions
                                                                                regarding revenue accruals, (4) implementation of new
σσ    CCC – Unqualified Opinion in FY 2009. In its                              accounting standards and financial reporting requirements,
      unqualified opinion, an independent certified public                      (5) management review of credit card transactions and
      accounting firm found that the CCC, as of September                       controls over the programs, (6) internal controls for revenue
      30, 2009, presented its financial position and related                    related transactions, and (7) physical inventory policies
      budgetary concerns in a fair and accurate manner. The firm                and procedures of pooled real property. The firm did
      also identified seven significant deficiencies (the first was             not classify any of the significant deficiencies as material
      a material weakness): (1) financial management system                     weaknesses. Instances of non-compliance with the FFMIA
      functionality, (2) controls over farm storage facility loans,             were also identified. FS generally agreed with the significant
      (3) reconciliation controls over the Statement of Budgetary               deficiencies discussed in the report and is implementing
      Resources gross outlays and offsetting collections, (4)                   actions.
      controls over intra-governmental balances, (5) controls
                                                                           σσ   NRCS Disclaimer of Opinion in FY 2009/2008. In its
      over accounts receivable and revenue, (6) controls over
                                                                                disclaimer of opinion, an independent certified public
      child agency financial reporting, and (7) information
                                                                                accounting firm reported that as of September 30, 2009,
      security controls. The results of tests of compliance with
                                                                                NRCS did not present its financial statements in a clear or
      laws and regulations disclosed noncompliance with the
                                                                                concise manner, particularly with respect to obligations,
      Federal Financial Management Improvement Act (FFMIA).
                                                                                including accrued expenses and undelivered orders,
      CCC and OIG are currently in the process of reaching
                                                                                unfilled customer orders, leases, internal use software, and
      management decision.
                                                                                stewardship property, plant and equipment. The firm’s
σσ    Federal Crop Insurance Corporation (FCIC)/RMA                             report on NRCS’ internal control structure over financial
      – Unqualified Opinion in FY 2009. In its unqualified                      reporting identified seven significant deficiencies (the
      opinion, an independent certified public accounting firm                  first five are considered material weaknesses) in NRCS’
      found the FCIC/RMA financial statements presented fairly,                 accounting and controls over (1) undelivered orders, (2)
      in all material respects, the financial position of the FCIC/             revenue and unfulfilled customer orders process, (3) accrued
      RMA as of September 30, 2009, and its net costs, changes                  expenses, (4) property, plant and equipment, (5) financial
      in net position, and budgetary resources for the year then                reporting, (6) general and application controls environment,
      ended, in conformity with accounting principles generally                 and (7) purchase and fleet card transactions. The results of
      accepted in the United States of America. In addition,                    their tests of compliance with laws and regulations disclosed
      the firm identified no significant deficiencies or material               instances of noncompliance with appropriations law and
      weaknesses related to internal controls of FCIC/RMA nor                   the Federal Financial Management Improvement Act of
      any noncompliances with laws and regulations.                             1996 (FFMIA). NRCS generally agreed with the significant
σσ    FNS – Unqualified Opinion in FY 2009/2008. The audit                      deficiencies discussed in the report and is implementing
      of the FNS FY 2009 Financial Statements resulted in an                    corrective actions.
      unqualified opinion and did not identify any significant             σσ   RD – Unqualified Opinion on FY 2009/2008. In
      deficiencies; however, one instance of noncompliance with                 OIG’s opinion, RD as of September 30, 2009, presented
      laws and regulations was reported related to the Improper                 its financial position and related budgetary concerns in
      Payment Information Act of 2002.                                          a fair and accurate manner. We noted no instances of
                                                                                noncompliance with laws and regulations. However,




24     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                   Goal 3




      we identified three significant deficiencies (the first           USDA when dispersing Recovery Act funds. OMB’s guidance
      was a material weakness) in RD’s: (1) controls over               calls for agencies receiving Recovery Act funds to implement
      assumptions used to predict future cash flows for its             a limited data review process to identify material omissions
      loan portfolio, (2) IT controls in the automated Rural            and/or significant errors and to notify the recipients of the
      Utilities Service legacy system, and (3) the annual review        need to make complete, accurate, and timely adjustments.
      of Rural Telecommunications Program open obligations.
                                                                        OCFO agreed with our recommendation and issued guidance
      OIG recommended that RD improve controls over the
                                                                        in October 2009. (Audit Report 11703-1-HQ, American
      development, validation, and approval of assumptions used
      to predict cash flows, and that funds that are no longer
                                                                        Recovery and Reinvestment Act Reporting Oversight)
      needed be de-obligated. RD generally agreed with the              Recovery Act Equipment Assistance Grants
      deficiencies and recommendations discussed in the report
      and is implementing corrective actions.                           We reviewed the grant evaluation processes used by State
                                                                        Agencies (SA) in the allocation of $100 million in Recovery
(Audit Report Nos. 50401-67-FM, 50401-69-FM, 06401-
                                                                        Act funds. The funds were awarded to school food authorities
24-FM, 27401-34-Hy, 05401-18-FM, 08401-10-FM,
                                                                        participating in the FNS National School Lunch Program
10401-3-FM, and 85401-17-FM, respectively, for the USDA
                                                                        (NSLP). We found that FNS regional offices did not review or
consolidated and special purpose, FCIC/RMA,CCC, and
                                                                        obtain an understanding of the competitive grant application
FS financial statements for FY 2009/2008; NRCS financial
                                                                        process for their respective States. We also found that the FNS
statements for FY 2009/2008; and the RD and FNS financial
                                                                        national office did not issue guidance requiring the regional
statements for FY 2009/2008)
                                                                        offices to conduct a review or obtain an understanding of their
RECOVERY ACT REVIEWS                                                    respective SA’s competitive grant evaluation processes. We
                                                                        learned that each SA assigned an application score based on
Recovery Act Reporting Oversight                                        its own unique criteria. We met with personnel from the FNS
We found that USDA has provided significant information                 regional office and discussed the oversight processes. As a result,
and assistance to its agencies, but has not established an              FNS cannot ensure that NSLP equipment assistance grants
internal control structure with formal policies and procedures          are competitively awarded based upon the need for equipment
that provide a clear indication of departmental versus                  assistance, with priority given to schools in which not less
agency responsibility for determining the completeness and              than 50 percent of the students are eligible for free or reduced-
validity of recipient reporting. This audit focused on the              price meals, as mandated under the National School Lunch
internal controls, policies, and procedures for implementing            Act. We continue to work with FNS to address our concerns.
recipient reporting requirements specified in OMB M-09-21,              Recovery Act Fast Report (Audit Report 27703-1-HQ,
Implementing Guidance for the Reports on Use of Funds Pursuant          American Recovery and Reinvestment Act of 2009 Equipment
to the American Recovery and Reinvestment Act (Recovery Act)            Assistance Grants)
of 2009, dated June 22, 2009, which are the responsibility of




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         25
                                                                  Goal 3




 GOVERNMENTWIDE ACTIVITIES – GOAL 3                                             $202 million for the Trade Adjustment Assistance
                                                                                for Farmers Program (TAAFP). OIG continues to
 Review of Legislation, Regulations, Directives,                                participate in meetings of the intra-departmental
 and Memoranda                                                                  task force to develop new policies and procedures for
 σσ    Improving FISMA Reporting. As part of the workgroup                      TAAFP, providing informal comments and feedback to
       effort, OMB asked the Federal Audit Executive                            strengthen the management controls of this mandated
       Committee (FAEC) for input into improving the IG’s                       program. Our comments included strengthening the
       annual FISMA reporting (developing more meaningful                       oversight and monitoring processes and establishing
       questions for OMB to ask IGs to address in their                         performance measures to determine the effectiveness of
       FISMA analysis). OMB stated that while the CIOs’                         the program.
       draft metrics focus on specific controls, it would like             σσ   Intra-Departmental Coordinating Committee on
       the OIGs to analyze the agencies’ IT security program
                                                                                International Affairs. OIG Audit staff members
       management. A draft OIG FISMA metrics spreadsheet
                                                                                have been attending and participating in meetings
       developed by the IT committee was provided for
                                                                                of the USDA’s Intra-Departmental Coordinating
       review and comment. OIG reviewed the draft release
                                                                                Committee on International Affairs. This working
       and requested no changes.
                                                                                group—headed by FAS—includes representatives
 σσ    Executive Order 13520: Reducing Improper Payments                        from most of the agencies in the Department.
       and Eliminating Waste in Federal Programs. OIG                           Some of the topics and updates discussed at these
       reviewed Executive Order (EO) 13520, which                               meetings include Departmental efforts in the areas
       establishes additional requirements, such as requiring                   of Global Market Strategy or the National Export
       agencies to designate an accountable official, and post                  Initiative; reconstruction efforts in Haiti, Pakistan,
       improper payment data on the Internet. Draft OMB                         and Afghanistan; and Global Food Security. We
       guidance to agencies for implementing EO 13520 was                       provided informal comments on the Department’s
       also reviewed, as well as draft Department of Treasury                   proposed Global Market Strategy, stressing the needs
       guidance to agencies required to post improper payment                   for timetables, performance measurements, and other
       data on the Internet and draft memorandum for heads of                   improvements.
       executive departments and agencies, which expands the
       use of recovery audits to identify improper payments. We            σσ   Acquisition and Grant Communities Disbursing Recovery
       generally concurred with the proposed guidances.                         Act Funds. At the request of, and in consultation
                                                                                with RATB, the Department of Commerce OIG
 σσ    “Government Accountability Office Improvement Act
                                                                                developed a survey to obtain a current benchmark of
       of 2010” (S. 2991). OIG reviewed this proposed
                                                                                the acquisition and grant communities in the Federal
       legislation, which would enhance the authority of
                                                                                Government as Recovery Act funds are being awarded.
       GAO with regard to inspecting records, making
                                                                                The survey attempts to capture projected workforce
       and retaining copies of records, interviewing agency
                                                                                staffing and qualifications data over the next year as
       employees, and administering oaths and taking sworn
                                                                                Recovery Act funds continue to be disbursed. OIGs
       testimony. OIG neither supported nor opposed this
                                                                                were asked to determine the method for completing
       proposed legislation, but suggested that language be
                                                                                the survey that is best suited to their agency, taking
       added recognizing the ability and authority of OIGs
                                                                                into consideration recent or ongoing audit work of
       and other law enforcement agencies to withhold
                                                                                the acquisition and grants workforce and the agencies’
       sensitive and investigative records during the pendency
                                                                                handling of Recovery Act funds for contracts and
       of an open investigation or ongoing grand jury or
                                                                                grants. We participated in a pilot program conducted
       criminal proceedings.
                                                                                by Commerce in the development of the survey. We
 Participation on Committees, Working Groups,                                   selected and worked with two USDA agencies—FNS
 and Task Forces                                                                and ARS.
 σσ    Trade Adjustment Assistance for Farmers Program under               σσ   National Single Audit Sampling Project. This project
       the Recovery Act. The Recovery Act reauthorized                          is being conducted under the auspices of the [then]




26    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                 Goal 3




     President’s Council on Integrity and Efficiency (PCIE)                    and grant activities. The task force has worked to
     Audit Committee study, Report on National Single                          better allocate resources and improve coordination in
     Audit Sampling Project, issued to OMB in June 2007.                       procurement and grant fraud cases and to otherwise
     The purpose of this project is to evaluate the quality of                 accelerate investigations and prosecutions. At the
     audits performed under OMB Circular A133 and how                          regional level, OIG Investigations field offices in
     to improve them.                                                          the Northeast, Great Plains, Midwest, Southeast,
σσ   Financial Statement Audit Network (FSAN) Workgroup.                       Southwest, and Western Regions participate on
     OIG auditors are members of the FSAN workgroup.                           procurement fraud task forces initiated by the local
     FSAN consists of OIG auditors from numerous                               United States Attorneys’ Offices. The Counsel to the
     Federal agencies, and its main purpose is to share                        IG participates as a member of the NPFTF Legislation
     ideas, knowledge, and experience concerning Federal                       Committee.
     financial statement audits.                                          σσ   The National Computer Forensic Division (NCFD)
σσ   Inter-Agency Suspension and Debarment Committee.                          is an active participant in the CIGIE IT Committee’s
     A USDA/OIG Audit official is a member of the                              Investigations Subcommittee and the Working Group
     Inter-Agency Suspension and Debarment Committee                           on Computer Forensics, which focused on pertinent
     (ISDC). The ISDC is a forum for the advancement                           nationwide issues such as the Trusted Internet
     of suspension and debarment policy and activities                         Connection (TIC) issue. The subcommittee is expected
     within the Federal Government. Our OIG official                           to continue through FY 2010.
     serves as a Co-Chair on the ISDC Subcommittee on                     σσ   A forensic analyst from NCFD participates full time
     Parallel Proceedings, whose goal is the coordination                      at the FBI’s Heart of America Regional Computer
     of suspension and debarment proceedings with                              Forensics Laboratory (HARCFL) in Kansas City,
     contemporaneous civil and criminal actions.                               Missouri. Participation in HARCFL has been beneficial
σσ   CIGIE. The USDA IG chairs this Council of 69                              in obtaining direct access to a Regional Computer
     Federal IGs. The IG Reform Act of 2008 established                        Forensics Laboratory, training, sample policies and
     CIGIE by merging two previous IG Councils:                                procedures, and, as needed, FBI assistance in OIG’s
     PCIE and the Executive Council on Integrity and                           forensic examinations.
     Efficiency. CIGIE’s mission is to address integrity,                 ONGOING AND PLANNED REVIEWS FOR GOAL 3
     economy, and effectiveness issues that transcend
     individual Government agencies, and to increase the                  Topics that will be covered in ongoing or planned
     professionalism and effectiveness of the IG workforce.               reviews under Goal 3 include:
     CIGIE has embarked on several studies, two studies                   σσ   oversight of Federally-authorized research and
     led by USDA OIG. The first study, examined whether                        promotion board activities (AMS),
     agency Recovery Act websites met Governmentwide                      σσ   FSA farm loan security (FSA),
     standards for providing members of the public with
     easy access to (1) report fraud directly to OIGs and                 σσ   effectiveness of FSA’s counter-cyclical payments based
     (2) OIG Recovery Act oversight reports. The second                        on historic yield (FSA),
     study, that is in process, is identifying proactive steps            σσ   international trade policy and procedures (FAS,
     IGs took in the first 6 months after being entrusted to                   APHIS, FSIS, NIFA, and ERS),
     oversee $787 billion in expenditures authorized by the               σσ   monitoring the implementation of 2008 Farm Bill
     Recovery Act.                                                             provisions and mandates (FSA, NRCS, RMS, and
σσ   National Procurement Fraud Task Force (NPFTF). OIG                        RD),
     is a member of this task force, formed by DOJ in                     σσ   USDA’s management and security over wireless
     October 2006 as a partnership among Federal agencies                      handheld devices (multi agency -Departmentwide),
     charged with the investigation and prosecution of
                                                                          σσ   Recovery Act spending for WIC management
     illegal acts in connection with Government contracting
                                                                               information system (FNS),




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half            27
                                                              Goal 3




 σσ    Recovery Act spending for FSA IT Issues (FSA),                  ONGOING AND PLANNED REVIEWS FOR GOAL 3
 σσ    FY 2010 FISMA (OCIO),                                           UNDER RECOVERY ACT FUNDS
 σσ    ITS general controls review (FSA, NRCS, RD),                    Topics that will be covered in ongoing or planned reviews
 σσ    FS acquisition of IT software/hardware (FS),                    for Goal 3 under Recovery Act include:
 σσ    effectiveness and enforcement of debarment and                  σσ    healthy forest initiatives (FS), and
       suspension regulations in USDA,
                                                                       σσ    FS wood to energy projects (FS).
 σσ    Department and standalone agencies’ financial
       statements for FY 2010 (OCFO),                                  The findings and recommendations from these efforts will
                                                                       be covered in future Semiannual Reports as the relevant
 σσ    FY 2010 National Finance Center (NFC) general
                                                                       audits and investigations are completed.
       controls (OCFO),
 σσ    retirement, health, and life insurance withholdings/
       contribution and supplemental headcount report
       submitted to the Office of Personnel Management, FY
       2010 (OCFO), and
 σσ    FY 2010 National IT Center general controls (OCIO).
 The findings and recommendations from these efforts will
 be covered in future Semiannual Reports as the relevant
 audits and investigations are completed.




28    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                  Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                  EXAMPLES OF AUDIT AND INVESTIGATIVE WORK
                                                                       FOR GOAL 4
Increase the efficiency and effectiveness with which
USDA manages and exercises stewardship over                            Wisconsin Landowner Charged With Violating Terms
natural resources.                                                     of Conservation Easement
                                                                       A Wisconsin landowner, who had been paid approximately
OIG’s audits and investigations focus on USDA’s management
                                                                       $230,000 by NRCS for a permanent conservation easement on
and stewardship of natural resources, including soil, water,
                                                                       487 acres of land, pled guilty in Federal court to deliberately
and recreational settings. Our work in this area is vital because
                                                                       violating terms of the agreement by unlawfully cutting trees.
USDA is entrusted with hundreds of billions of dollars in fixed
                                                                       Our investigation determined that the landowner entered into a
public assets, such as 193 million acres of national forests and
                                                                       contract with a timber company and received payment for hard
wetlands. USDA also provides scientific and technical knowledge
                                                                       wood removal, without NRCS’ consultation or approval, which
for enhancing and protecting the economic productivity and
                                                                       was in direct violation of the easement. In October 2009, the
environmental quality of the estimated 1.5 billion acres of forests
                                                                       landowner was sentenced in United States District Court,
and associated rangelands in the United States.
                                                                       Eastern District of Wisconsin, to 4 months of probation, and
In the first half of FY 2010, we devoted 6 percent of our total        ordered to pay $8,000 restitution to NRCS.
direct resources to Goal 4, with 99.8 percent of these resources
assigned to critical/high-impact work. We had no audit
                                                                       Esperanza Fire Investigation Concluded
recommendations under Goal 4, and no investigative cases               In December 2009, OIG issued the Report of Investigation
resulted in criminal, civil, or administrative action. OIG issued      on the Esperanza Fire, which occurred in October 2006, in
1 audit report and 4 Recovery Act fast reports under Goal 4            Southern California, near the town of Cabazon. Shortly after
during this reporting period. OIG’s investigations under Goal 4        the fire began, five FS firefighters were trapped. Three lost
yielded no indictment, convictions, or monetary results during         their lives attempting to contain and suppress the blaze. Two
this reporting period.                                                 others were critically injured and died at the hospital as a result
                                                                       of their injuries. By law, OIG must conduct an independent
                                                                       investigation of each fatality of a FS firefighter that occurs
  Management Challenges Addressed UNDER GOAL 4                         as the result of a wildfire entrapment or burnover. The
                                                                       investigation did not disclose any misconduct or unauthorized
  σσ     Interagency Communications, Coordination, and
                                                                       actions on the part of agency personnel involved in the fire.
         Program Integration Need Improvement (also under
         Goals 1, 2, and 3)                                            RECOVERY ACT REVIEWS
  σσ     Better FS Management and Community Action
         Needed To Improve the Health of the National Forests
                                                                       Forest Service (FS) Did Not Have a Standard Template
         and Reduce the Cost of Fighting Fires (also under             For Its Grants and Agreements That Contained All the
         Goals 1 and 3)                                                Required Recovery Act Provisions
  σσ     Implementation of the Recovery Act (also under Goal 2)        FS established four specialized Economic Recovery Operations
                                                                       Centers (EROCs) responsible for executing and managing FS
                                                                       Recovery Act awards in a consistent manner agencywide. We
                                                                       found that the grant and agreement template used at one of
                                                                       these EROCs either inadequately stated or lacked a number
                                                                       of required or necessary Recovery Act provisions. As part of
                                                                       FS’ standardization effort, EROC staff use standard grant
                                                                       and agreement templates from I-Web, a web-enabled General
                                                                       Support System used to host a suite of database applications
                                                                       as the basis for every FS Recovery Act award. However, the




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half          29
                                                                    Goal 4




grant and agreement template did not include language stating            RATB Expressed Concerns Over Two Recovery Act
that: (1) award and sub-award recipients are responsible for             Funded Projects for Green Mountain National Forest
complying with all applicable Recovery Act requirements; (2)
                                                                         We conducted a contract compliance review based on a referral
recipients are required to closely monitor and report Recovery
                                                                         from RATB, who expressed concerns about two contracts
Act-funded program activities and accomplishments; (3) FS
                                                                         totaling $1.7 million for the grading and graveling of
has the right to terminate awards for non-compliance or non-
                                                                         30 miles of roads within the Green Mountain National
performance; (4) OIG has access to recipient and sub-recipient
                                                                         Forest in Vermont. The Board’s referral expressed concerns
records; and (5) reprisals against whistleblowers are prohibited.
                                                                         as to whether the contractors: (1) were registered in the
We recommended that FS immediately modify its grant                      Small Business Administration’s Online Representations and
templates in I-Web to include the required Recovery Act                  Certification Application (ORCA) system, and (2) had the
provisions listed above. FS agreed to take immediate action to           ability to complete the scope of work under each contract. We
modify the grant templates used for the Recovery Act-funded              analyzed contract files, interviewed FS contracting personnel
projects. Recovery Act Fast Report (Audit Report 08703-05-               and both contractors, and performed site visits. Since both
SF (1), Recovery Act – FS Hazardous Fuels Reduction and                  contractors were registered in ORCA and both contractors
Ecosystem Restoration on Non-Federal Lands)                              possessed the staff, expertise, and equipment to complete the
FS Did Not Have A Standard Template For Its                              scope of work, we found no evidence to support the Board’s
Contracts That Contained All the Required Recovery                       concerns. In the areas we reviewed, we determined that the
Act Provisions                                                           contracts complied with Federal Acquisition Regulation and
                                                                         Recovery Act requirements. RATB Referral Report Recovery
We found that the contract templates at one of FS’ four
                                                                         Act Fast Report (Audit Report 08703-03-SF (1), Green
EROCs lacked a number of required or necessary Recovery
                                                                         Mountain National Forest Deferred Road Maintenance)
Act provisions. As part of FS’ standardization effort, EROC
staff use standard contract templates from FS’ Integrated                FS Did Not Provide Descriptions of Deliverables in
Acquisition System (IAS) a commercial software application               FedBizOpps (FBO) for Six Task Orders
used to administer Government contracts, as the basis for                We conducted a contract compliance review based on a referral
every FS Recovery Act award. However, the contracts did not              from RATB, who expressed concerns that task orders totaling
include language stating that: (1) contractors and their sub-            about $1.18 million for a facility reconstruction project lacked
contractors are responsible for complying with all applicable            the required “Recovery Act identifying information” and that
Recovery Act requirements; (2) contractors and their sub-                the “descriptions of deliverables were not provided.” Our review
contractors are required to comply with the Recovery Act’s               determined that FS did not: (1) follow the OMB guidance
Buy American requirement; (3) contract recipients are                    to publicize pre-solicitation announcements in FedBizOpps,
responsible for complying with the Recovery Act’s recipient              and (2) post the required descriptions of deliverables under
reporting requirements; (4) OIG has access to contractor and             the FBO Synopsis as required by the Federal Acquisition
sub-contractor records; and (5) FS has the right to suspend or           Regulation (FAR), Subpart 5.301(4), March 31, 2009.
terminate the contract and debar the contractor for failure to           However, the OMB Recovery guidance was not published in
comply with Recovery Act requirements.                                   the Federal Register until after these task orders were awarded.
We recommended that FS immediately modify its contract                   We recommended that FS should immediately notify all
templates in IAS to include the required Recovery Act                    contracting officers concerning OMB guidance once it is issued.
provisions listed above. FS agreed to take immediate action to           In addition, we recommended that the Apache-Sitgreaves
create standard contract templates for the Recovery Act-funded           National Forest provide descriptions of the deliverables in
projects. Recovery Act Fast Report (Audit Report 08703-06-SF             the Synopsis posted under FBO for the six task orders as
(1), Recovery Act – FS Abandoned Mine Remediation)                       required by FAR. In response to our report, FS assigned
                                                                         the Southwest EROC—one of four specialized Economic




30     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                  Goal 4




Recovery Operations Centers responsible for management of              Prior to the Recovery Act, NRCS had 219 environmentally
ARRA related acquisitions—to the Apache-Sitgreaves National            sound project agreements, totaling about $308 million,
Forest to assure compliance with applicable Recovery Act               awaiting funding. NRCS officials indicated their main objective
provisions. (Audit Report 08703-02-SF, Contract Compliance             was to get projects started quickly. In fact, over a third of the
Review: Apache-Sitgreaves National Forest, Arizona—Hoyer               allocated Recovery Act funds (75 projects, totaling about
Campground Facility Reconstruction Project)                            $59 million) went to communities whose unemployment rates
                                                                       were lower than the national average while 45 projects, totaling
Incorrect Procedures Provided to Report Award of
                                                                       about $97 million, were not funded at all, despite being located
Recovery Act Funds and Project Selections Based on
                                                                       in communities whose unemployment rates were greater than
Environmental Benefits, not Economic Factors                           the national average.
NRCS received $145 million for its Watershed Protection and
                                                                       We recommended that NRCS provide clarification on the
Flood Prevention Operations Program (Watershed Operations),
                                                                       Recovery Website and to the Department that details the
which provides financial and technical assistance for watershed
                                                                       actual methodology used to analyze projects for Recovery Act
protection, flood mitigation, and water quality improvements.
                                                                       funding, and that it provide justification for funding the
NRCS records show that 80 projects, totaling $127 million,
                                                                       75 projects approved in locations where unemployment rates
were selected for funding. Although NRCS issued guidelines
                                                                       were less than the national average. NRCS responded that it
to award recipients regarding their reporting requirements,
                                                                       adequately addressed the applicable Recovery Act priorities
they were not specific enough. OMB requires that recipients
                                                                       when selecting projects. NRCS will consider communities and
report to a designated Web site – www.FederalReporting.gov
                                                                       citizens impacted when funding new projects with withdrawn
– the amount of the award, the amount they received, and
                                                                       and unused funds. NRCS generally disagreed with our
the amount they spent. If recipients have received or spent no
                                                                       findings, but agreed to prioritize the selection of any new (or
funds, then OMB requires that they report zeroes. Reporting
                                                                       replacement) projects in economically distressed areas. NRCS
no funds received or spent is important because it will enable
                                                                       continues to assert that while the primary project selection
OMB and others to judge the speed at which funds are being
                                                                       factors were related to “shovel readiness,” its selection was in
sent out and spent. OIG recommended NRCS provide
                                                                       accordance with Recovery Act’s specific statutory mandates
clear direction to the State offices that conforms to OMB’s
                                                                       and the methodology it followed was appropriately represented
requirements on how recipients are to report on the amounts
                                                                       in its implementation report. Recovery Act Fast Reports
they are awarded, but have not yet received. NRCS concurred
                                                                       (Audit Report 10703-2-KC, Watershed Protection and Flood
that a correction was needed and issued a bulletin regarding
                                                                       Prevention Operations Program 10703-2-KC (1-2)).
proper reporting procedures.
As we reported in our second interim report, NRCS based its            NRCS Program Decisions to Purchase Easements on
decision on which projects would be funded on environmental            Small Tracts of Lands and Valuation Methodologies
benefits generated by the project rather than economic                 Used To Compensate Landowners Questioned
factors such as job creation in areas of high unemployment.            The Recovery Act provided $145 million to NRCS so that the
Specifically, NRCS stated on its recovery Website and                  agency, through its Emergency Watershed Protection Program,
implementation plan that the main factors considered when              could purchase easements on floodplain lands that have been
selecting projects for Recovery Act funding were ones to               recently flooded or that have a history of repeated flooding. In
promote economic recovery in areas most affected by the                June 2009, 289 applications, totaling $138 million,
recession and create or retain jobs in economically distressed         were approved.
areas. After analysis of both projects selected for funding and
                                                                       As reported in the SARC, Second Half of 2009, we found
those that were not funded, we concluded this was not the
                                                                       that NRCS does not have adequate procedures to conduct
case. There was not an apparent effort to fund projects in
                                                                       purchases of floodplain easements or to establish value for
economically distressed areas.
                                                                       easement acquisition. We found that NRCS procedures do




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half        31
                                                                 Goal 4




not address many important factors regarding acquisition              the Floodplain Easement Program. OGC stated that NRCS
of these homes. We recommended that NRCS re-evaluate                  might be able to make a finding that using the NRCS normal
this approach and, if used, establish additional procedures to        appraisal process is “NOT to the greatest extent practicable,”
address purchasing easements on small parcels of land where           and it would be prudent for NRCS to document how it arrived
acquisition and demolition costs for the homes are the prime          at its decision. OGC also noted that NRCS’s decision to use
cost. NRCS indicated that it reviewed the policies authorizing        the WRP methodology for the standard (non-Recovery Act)
purchase of easements on small tracts of land with existing           program may require legislative action.
structures and determined that the purposes of the program
                                                                      We recommended that NRCS stop approving further easement
were met. It agreed to establish standard operating procedures
                                                                      option agreements until it demonstrates that the required
for purchasing easements on small parcels with structures and
                                                                      appraisal method is not practicable for easements funded
incorporate these procedures into the program manual.
                                                                      through the Recovery Act. NRCS submitted that its decision
Our second interim report found that when NRCS received               adopting an alternative easement compensation methodology
Recovery Act funds, it used the same method for determining           is justified because the use of extensive individual appraisal
easement value that it uses under WRP. NRCS based its use of          procedures prevents it from meeting the strict timeframes
the WRP methodology for Recovery Act funded transactions              required by the Recovery Act. NRCS agreed to place a
because of a determination that it was unable to meet the             temporary hold on the use of the WRP valuation methodology
time constraints of Recovery Act using the normal appraisal           for regular funding (non-Recovery Act) easements and is
process, but the NRCS decision did not include any data or            currently discussing with OGC the appropriate valuation
documentation about the time line of the normal appraisal             procedures for the floodplain easement programs. (Audit
process to support its decision. NRCS consulted with OGC,             Report 10703-1-KC, Emergency Watershed Protection
but had not adequately addressed their concerns over the              Program 10703-1-KC (2))
valuation methodology adopted for easements acquired through




32     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                             Goal 4




GOVERNMENTWIDE ACTIVITIES - GOAL 4                                    ONGOING AND PLANNED REVIEWS FOR GOAL 4
Review of Legislation, Regulations, Directives, and                   Topics that will be covered in ongoing or planned reviews
Memoranda                                                             under Goal 4 include:
Interim Final Rule 7 C.F.R. Part 1470, “Conservation                  σσ    controls and management of drug enforcement issues
Stewardship Program (CSP).” OIG provided comments                           on National Forest System Land (FS),
on this NRCS and CCC interim final rule, which would                  σσ    Forest Legacy Program (FS),
implement the CSP’s authorizing legislation enacted                   σσ    FS processes to obtain and grant rights of way and
in 2008. The interim final rule provided for an annual                      easements (FS), and
payment under the CSP to compensate producers
                                                                      σσ    FS administration of special use permits (FS),
for the costs of additional conservation activities and
of improving, maintaining, and managing existing                      The findings and recommendations from these efforts will
conservation activities. Since NRCS may be reimbursing                be covered in future Semiannual Reports as the relevant
some CSP participants for some of these costs through                 audits and investigations are completed.
other NRCS programs, such as the Environmental Quality                ONGOING AND PLANNED REVIEWS FOR GOAL 4
Incentives Program and the Wildlife Habitat Incentive                 UNDER RECOVERY ACT FUNDS
Program, OIG recommended that the interim final rule
                                                                      Topics that will be covered in ongoing or planned reviews
explicitly exclude from the CSP annual payment rate
                                                                      for Goal 4 under Recovery Act include:
calculation, costs incurred from conservation practices or
enhancements applied with financial assistance through                σσ    oversight and control of Watershed and Flood
all other USDA conservation programs. In addition,                          Prevention Operations (NRCS),
the interim final rule provided NRCS with the right                   σσ    oversight and control of Watershed Rehabilitation
to enter an agricultural operation for the purposes of                      Program (NRCS),
determining eligibility and for ascertaining the accuracy             σσ    hazardous fuels reduction/ecosystem restoration on
of any representations provided by an applicant for the                     non-Federal lands (FS), and
CSP. Since other representatives of USDA may also have                σσ    oversight and control of FS activities (FS).
a need to access an agricultural operation for CSP-related
                                                                      The findings and recommendations from these efforts will
purposes, OIG recommended that the right to access be
                                                                      be covered in future Semiannual Reports as the relevant
extended to any representative of USDA.
                                                                      audits and investigations are completed.




                                                                 USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half          33
                                                           Gauging the Impact of OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST THE OIG                                        For audits we show
STRATEGIC PLAN                                                            σσ     reports issued
The first way we gauged our impact was by measuring the                   σσ     management decisions made (number of reports and
extent to which our work focused on the key issues under our                     recommendations)
newly revised goals that became effective in FY 2008:                     σσ     total dollar impact of management-decided reports
1.	   Strengthen USDA’s ability to implement safety and security                 (questioned costs and funds to be put to better use)
      measures to protect the public health as well as agricultural       σσ     program improvement recommendations
      and Departmental resources.                                         σσ     audits without management decision
2.	   Reduce program vulnerabilities and strengthen program
      integrity in the delivery of benefits to program participants.
3.	   Support USDA in implementing its management                         For investigations we show
      improvement initiatives.                                            σσ     indictments
4.	   Increase the efficiency and effectiveness with which USDA           σσ     convictions
      manages and exercises stewardship over natural resources.
                                                                          σσ     arrests
                                                                          σσ     total dollar impact (recoveries, restitutions, fines)
IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                             σσ     administrative sanctions
DEPARTMENT PROGRAMS                                                       σσ     OIG Hotline complaints
A second way we gauge our impact is by tracking the
outcomes of our audits and investigations. Many of these
measures are codified in the IG Act of 1978, as amended. The
following pages present a statistical overview of the OIG’s
accomplishments this period.




34     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                                    Gauging the Impact of OIG




                                     PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                           FY 2009              FY 2010             FY 2010
Performance Measures
                                                                                            Actual               Target         1st Half Actual

OIG direct resources dedicated to critical-risk and high-impact
                                                                                           95.3%                 90%               95.4%
work.
Audit recommendations resulting in management decisions
                                                                                           88.8%                 85%               98.3%
within 1 year of report issuance.
Mandatory and Congressional, Secretarial, and agency-
requested audits completed within required or agreed-to                                     100%                 90%                100%
timeframes.
Closed investigations that resulted in a referral for action to the
Department of Justice, State/local law enforcement officials, or                           74.6%                 70%               58.5%
relevant administrative authority.
Closed investigations previously referred for action that resulted
in an indictment, conviction, civil suit or settlement, judgment,                          76.8%                 65%               70.8%
administrative action or monetary result.




                          RECOVERY ACT PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                FY 2010           FY 2010
                                         Performance Measures
                                                                                                                 Target        1st Half Actual

Review internal controls related to individual Recovery Act programs prior to
                                                                                                                 75%                40%
substantial funds being obligated or expended.1
Notify USDA agency managers of significant audit findings related to Recovery Act
programs along with recommendations for corrective action within 30 days after                                   80%                80%
identification.
Respond to Recovery Accountability and Transparency Board sponsored requests and
                                                                                                                 85%               100%
projects within established schedules or agreed-to timeframes.
Whistleblower retaliation allegations are investigated and reported within 180 days of
                                                                                                                 75%                N/A
receipt.2
Investigations staff will participate in 10 Outreach/Training meetings each quarter on
                                                                                                                 80%               125%
Recovery Act work.
An investigative determination to accept or decline an allegation of whistleblower
                                                                                                                100%                N/A
retaliation is made within 180 days of receipt.2
Monthly reporting to Office of Management and Budget on Recovery Act funds
                                                                                                                100%               100%
within required deadline
1
    Reporting is cumulative and it is expected that we will meet the 2010 goal by the end of the fiscal year.
2
    No allegations of whistleblower retaliation were received.




                                                                                   USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half        35
                                                                 Gauging the Impact of OIG




                                  SUMMARY OF AUDIT ACTIVITIES—OCTOBER 2009–MARCH 2010
Reports Issued                                                                                                                                   31
     Audits Performed by OIG                                                                                                                     24
     Evaluations Performed by OIG                                                                                                                 0
     Audits Performed Under the Single Audit Act                                                                                                  0
     Audits Performed by Others                                                                                                                   7
Management Decisions Made
     Number of Reports                                                                                                                           18
     Number of Recommendations                                                                                                                 119
Total Dollar Impact (Millions) of Management-Decided Reports                                                                                 $16.0
     Questioned/Unsupported Costs                                                                                                             $0.1ab
        Recommended for Recovery                                                                                                              $0.1
        Not Recommended for Recovery                                                                                                          $0.0
     Funds To Be Put to Better Use                                                                                                           $15.9
a
 These were the amounts the auditees agreed to at the time of management decision.
b
 The recoveries realized could change as the auditees implement the agreed upon corrective action plan and seek recovery of amounts recorded as debts due
the Department.


                            SUMMARY OF INVESTIGATIVE ACTIVITIES—OCTOBER 2009–MARCH 2010
     Reports Issued                                                                                                                            131
     Cases Opened                                                                                                                              239
     Cases Referred for Prosecution                                                                                                              76
Impact of Investigations
     Indictments                                                                                                                               164
     Convictions                                                                                                                               187a
     Searches                                                                                                                                    81
     Arrests                                                                                                                                   148
Total Dollar Impact (Millions)                                                                                                               $95.1
     Recoveries/Collections                                                                                                                   $3.9b
     Restitutions                                                                                                                            $87.6c
     Fines                                                                                                                                    $1.2d
     Asset Forfeitures                                                                                                                        $2.0e
     Claims Established                                                                                                                       $0.2f
     Cost Avoidance                                                                                                                           $0.1g
     Administrative Penalties                                                                                                                 $0.1h
Administrative Sanctions                                                                                                                       119
     Employees                                                                                                                                   13
     Businesses/Persons                                                                                                                        106
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely; therefore, the 187 convictions
do not necessarily relate to the 164 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Asset Forfeitures are judicial or administrative results.
f
  Claims established are agency demands for repayment of USDA benefits.
g
  Consists of loans or benefits not granted as the result of an OIG investigation.
h
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.




36     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                       Gauging the Impact of OIG




           INVENTORY OF AUDIT REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                             FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
                                                                                              NUMBER            DOLLAR VALUE
A.      FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY
                                                                                                 4               $19,536,963
        OCTOBER 1, 2009
B.      WHICH WERE ISSUED DURING THE REPORTING PERIOD                                            1               $27,500,000
        TOTALS                                                                                   5                $47,036,963
C.      FOR WHICH A MANAGEMENT DECISION WAS MADE DURING
                                                                                                 3
        THE REPORTING PERIOD
        (1) DOLLAR VALUE OF DISALLOWED COSTS                                                                     $15,910,729
        (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                    $255,632
D.      FOR WHICH NO MANAGEMENT DECISION HAS BEEN MADE BY
                                                                                                 2               $30,870,602
        THE END OF THE REPORTING PERIOD
        REPORTS FOR WHICH NO MANAGEMENT DECISION WAS MADE
                                                                                                 1                $3,370,602
        WITHIN 6 MONTHS OF ISSUANCE

                            INVENTORY OF AUDIT REPORTS WITH QUESTIONED COSTS AND LOANS
                                   FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
                                                                                           DOLLAR VALUES
                                                                                         QUESTIONED COSTS       UNSUPPORTED
                                                                           NUMBER
                                                                                            AND LOANS          COSTS AND LOANS
A.      FOR WHICH NO MANAGEMENT DECISION
                                                                              7           $237,807,833            $1,063,024
        HAD BEEN MADE BY OCTOBER 1, 2009
B.      WHICH WERE ISSUED DURING THIS
                                                                              2              $1,090,987           $1,061,958
        REPORTING PERIOD
        TOTALS                                                                 9           $238,898,820            $2,124,982
C.      FOR WHICH MANAGEMENT DECISION WAS
                                                                              2
        MADE DURING THE REPORTING PERIOD
        (1) DOLLAR VALUE OF DISALLOWED COSTS
        RECOMMENDED FOR RECOVERY                                                               $105,451              $23,889
        NOT RECOMMENDED FOR RECOVERY                                                                 $0                       $0
        (2) DOLLAR VALUE OF COSTS NOT
                                                                                                     $0                       $0
        DISALLOWED
D.      FOR WHICH MANAGEMENT DECISION
        HAS BEEN MADE BY THE END OF THIS                                      7           $238,793,432            $2,101,093
        REPORTING PERIOD
        REPORTS FOR WHICH NO MANAGEMENT
        DECISION WAS MADE WITHIN 6 MONTHS OF                                  6           $237,731,474            $1,039,135
        ISSUANCE
Unsupported values are included in questioned values
a




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half        37
                                                        Gauging the Impact of OIG




PROGRAM IMPROVEMENT RECOMMENDATIONS                                    σσ     FNS agreed to explore the use of a risk-based approach
                                                                              to identifying State agencies that should receive priority
A significant number of our audit recommendations carry no                    attention for management evaluations, and develop
monetary value per se, but their impact can be immeasurable                   guidance regarding the use of the management evaluation
in terms of safety, security, and public health. They can also                module to avoid inconsistency.
contribute considerably toward economy, efficiency, and                σσ     RHS agreed to establish at least two additional performance
effectiveness in USDA’s programs and operations. During                       measures to better reflect the agency’s success in meeting the
this reporting period, we issued 156 program improvement                      purposes and principles of the Recovery Act.
recommendations, and management agreed to implement a                  σσ     RD agreed to require State offices to develop and implement
total of 104 that were issued this period or earlier. Examples                an effective plan to use the available administrative funding
of those issued this period (see the main text of this report                 and consider additional ways to optimize the use of current
for a summary of the audits that prompted these program                       staff resources.
improvement recommendations) include the following:                    σσ     FS agreed to take immediate action to modify the grant
σσ    AMS agreed to strengthen its enforcement procedures                     templates in I-Web to include the required Recovery Act
      and to resolve and track complaints in a timely manner,                 provisions used for the Recovery Act-funded projects.
      implement a plan for achieving compliance from California’s      σσ     NRCS agreed to place a temporary hold on the use of
      SOP, obtain an OGC opinion on residue testing, and                      the WRP valuation methodology for regular funding
      strengthen oversight of certifying agents and operations.               (non-Recovery Act) easements and is currently discussing
                                                                              with OGC the appropriate valuation procedures for the
                                                                              floodplain easement programs.




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                          Gauging the Impact of OIG




            SUMMARY OF AUDIT REPORTS RELEASED FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
           DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2009, THROUGH MARCH 31, 2010, OIG ISSUED
                          31 AUDIT REPORTS, INCLUDING 7 PERFORMED BY OTHERS.
                         THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY
                                                           AUDITS         QUESTIONED COSTS     UNSUPPORTEDa       FUNDS BE PUT TO
                      AGENCY
                                                          RELEASED           AND LOANS        COSTS AND LOANS       BETTER USE
AGRICULTURAL MARKETING SERVICE                               1
AGRICULTURAL RESEARCH SERVICE                                3
COMMODITY CREDIT CORPORATION                                 1
FARM SERVICE AGENCY                                          3                  $29,029
FOOD AND NUTRITION SERVICE                                   5
FOOD SAFETY AND INSPECTION
                                                             1
SERVICE
FOREST SERVICE                                               3                                                      $27,500,000
MULTIAGENCY                                                  4                $1,061,958         $1,061,958
NATURAL RESOURCES
                                                             1
CONSERVATION SERVICE
OFFICE OF THE CHIEF FINANCIAL
                                                             1
OFFICER
RISK MANAGEMENT AGENCY                                       2
RURAL BUSINESS-COOPERATIVE
                                                             4
SERVICE
RURAL DEVELOPMENT                                            1
RURAL HOUSING SERVICE                                        1
TOTALS                                                       31               $1,090,987         $1,061,958          $27,500,000
TOTAL COMPLETED:
SINGLE AGENCY AUDIT                                         27
MULTIAGENCY AUDIT                                            4
SINGLE AGENCY EVALUATION                                     0
MULTIAGENCY EVALUATION                                       0
TOTAL RELEASED NATIONWIDE                                   31
TOTAL COMPLETED UNDER
                                                             7
CONTRACTb
TOTAL SINGLE AUDIT ISSUEDc
a Unsupported values are included in questioned values.
b Indicates audits performed by others.
c Indicates audits completed as Single Audit.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half     39
                                                        Gauging the Impact of OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                  FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
                                                   Agricultural Marketing Service
                                                                               QUESTIONED     UNSUPPORTED
                      RELEASE                                                                               FUNDS TO BE PUT
 AUDIT NUMBER                                   TITLE                           COSTS AND      COSTS AND
                       DATE                                                                                  TO BETTER USE
                                                                                  LOANS          LOANS
                                   Oversight of the National
016010003HY       2010/03/09
                                   Organic Program
Total: Agricultural Marketing Service                                  1
Agricultural Research Service
                                   DCAA Audit of International
                                   Science and Technology
020170011HQ       2009/11/04       Center’s Internal Controls for
                                   FY 2009 Funded by ARS –
                                   Project 3468P
                                   DCAA Audit of International
                                   Science and Technology
020170012HQ       2010/03/03       Center’s Internal Controls for
                                   FY 2009 Funded by ARS –
                                   Project T-1419P
                                   DCAA Audit of International
                                   Science and Technology
020170013HQ       2010/03/10       Center’s Internal Controls for
                                   FY 2009 Funded by ARS –
                                   Project 3431P
Total: Agricultural Research Service                                   3
Commodity Credit Corporation
                                   Fiscal Year 2009 CCC
064010024FM       2009/11/12
                                   Financial Statements
Total: Commodity Credit Corporation                                    1
Farm Service Agency
036010013SF       2009/12/15       Emergency Loan Reductions                        $29,029
                                   Controls Over Aquaculture
037030001CH       2009/12/29       Grants Stimulus Funds (Phase
                                   I)
                                   Recovery – Direct Farm
037030001TE       2010/02/25
                                   Operating Loans (Phase I)
Total: Farm Service Agency                                             3            $29,029




40    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                        Gauging the Impact of OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                  FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
Food and Nutrition Service
                                    Summary of Nationwide
270990071HY        2010/01/26       Electronic Benefits Transfer
                                    System Operations
                                    FY 2009 FNS Financial
274010034HY        2009/11/06
                                    Statements
                                    The Emergency Food
277030001AT        2010/03/31
                                    Assistance Program
                                    Funds Provided by
                                    the Recovery Act for
277030001HY        2009/12/16       Management and Oversight
                                    of the Supplemental Nutrition
                                    Assistance Program
                                    Supplemental Nutrition
277030001KC        2009/12/03       Assistance Program Benefits
                                    and the Thrifty Food Plan
Total: Food and Nutrition Service                                      5
Food Safety and Inspection Service
                                    FSIS National Residue
246010008KC        2010/03/25
                                    Program for Cattle
Total: Food Safety and Inspection Service                              1
Forest Service
080010002AT        2010/03/29       FS Contracted Labor Crews
                                    Fiscal Year 2009 Forest
084010010FM        2009/11/13
                                    Service Financial Statements
                                    FS Firefighting Succession
086010054SF        2010/03/31                                                                                     $27,500,000
                                    Plans
Total: Forest Service                                                  3                                           $27,500,000
Multi-Agency
                                    Fiscal Year 2009 USDA
504010067FM        2009/11/16
                                    Financial Statements
                                    Fiscal Year 2009 Audit of
504010069FM        2009/11/16
                                    USDA’s Closing Package
                                    Fiscal Year 2009 Federal
505010015FM        2009/11/18       Information Security
                                    Management Act Report
                                    Hurricane Indemnity Program
506010015AT        2010/03/31       – Integrity of Data Provided                $1,061,958      $1,061,958
                                    by RMA
Total: Multi-Agency                                                    4        $1,061,958      $1,061,958




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half     41
                                                       Gauging the Impact of OIG




                              AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                   FROM OCTOBER 1, 2009 THROUGH MARCH 31, 2010
Natural Resources Conservation Service
                                    Fiscal Year 2009 NRCS
104010003FM        2009/11/04
                                    Financial Statements
Total: Natural Resources Conservation Service                         1
Office of the Chief Financial Officer
                                    Recovery Act Reporting
117030001HQ        2009/10/23
                                    Oversight
Total: Office of the Chief Financial Officer                          1
Risk Management Agency
                                    Fiscal Year 2009 FCIC
054010018FM        2009/11/06
                                    Financial Statements
054010014TE        2010/03/30       Group Risk Crop Insurance
Total: Risk Management Agency                                         2
Rural Business-Cooperative Service
                                    Review of Lender With
340990010TE        2009/12/29       Business and Industry (B&I)
                                    Guaranteed Loan in Virginia
                                    Review of Lender With
340990012TE        2009/12/29       B&I Guaranteed Loan in
                                    Louisiana
                                    Rural Business Enterprise
347030001KC        2009/03/31
                                    Grants
                                    Recovery Act – B&I
347030001TE        2010/03/31
                                    Guaranteed Loan Program
Total: Rural Business-Cooperative Service                             4
Rural Development
                                    Fiscal Year 2009 Rural
854010017FM        2009/11/10       Development Financial
                                    Statements
Total: Rural Development                                              1
Rural Housing Service
                                    Single-Family Housing Direct
047030001KC        2009/11/05       Loans Recovery Act Controls
                                    (Phase I)
Total: Rural Housing Service                                          1
Grand Total                                                          31        $1,090,987   $1,061,958   $27,500,000




42    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                        Gauging the Impact of OIG




                                           AUDITS WITHOUT MANAGEMENT DECISION
The IG Act has a number of reporting requirements, among them tracking audits without management decision. The following
audits did not have management decisions made within the 6month limit imposed by Congress. Narratives for new entries follow
this table. An asterisk (*) indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed
before the agency can act to complete management decisions.
                                              NEW SINCE LAST REPORTING PERIOD
                                                                                               Total Value at        Amount With No
 Agency        Date Issued                              Title of Report                         Issuance (in        Mgmt Decision (in
                                                                                                  dollars)              dollars)
  NRCS         06/25/09            1.   Conservation Security Program (10601-4-KC)                  $4,895,958                $4,895,958
                                        Farm and Ranch Lands Protection Program
                07/06/09           2.   – Nationwide Selected Non-Governmental                         716,563                   716,563
                                        Organization (10099-6-SF)
  RMA           09/16/09           3.   RMA Compliance Activities (05601-11-At)                                 0                     0

                                        PREVIOUSLY REPORTED BUT NOT YET RESOLVED
These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the
recommendations where management decisions had not been reached have been reported in previous Semiannual Reports to
Congress. Agencies have been informed of actions that must be taken to reach management decision, but for various reasons the
actions have not been completed. The appropriate Under and Assistant Secretaries have been notified of those audits without
management decisions.

                                        Hurricane Relief Initiatives: Livestock and Feed
   FSA          02/02/09      4.                                                           $1,866,412               $1,688,247
                                        Indemnity Programs (03601-23-KC)
  Multi-                                Implementation of the Agricultural Risk
                09/30/03      5.                                                           0                        0
  agency                                Protection Act (50099-12-KC)
                                        Homeland Security Issues for USDA Grain and
                02/23/04      6.                                                           0                        0
                                        Commodities Inventories (50099-13-KC)
                                        Implementation of Trade Title of 2002 Farm
                03/28/07      7.        Bill and President’s Management Agenda             0                        0
                                        (50601-12-At)
                                        USDA’s Controls Over the Importation and
                03/31/08      8.                                                           0                        0
                                        Movement of Live Animals (50601-12-Ch)
                                        Monitoring of RMA’s Implementation of
  RMA           03/15/02      9.        Manual 14 Reviews/Quality Control Review           0                        0
                                        System (05099-14-KC)
                                        Evaluation of RMA Indemnity Payments for
                03/26/07      10.                                                          415,710                  415,710
                                        2004 Florida Hurricanes (05099-27-At)
                                        Crop Loss and Quality Adjustments for
                09/30/08      11.                                                          15,951,016               15,951,016
                                        Aflatoxin Infected Corn (05601-15-Te)
                                        RMA’s 2005 Emergency Hurricane Relief
                03/04/09      12.                                                          217,256,417              217,256,417
                                        Efforts in Florida (05099-28-At)




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half         43
                                                        Gauging the Impact of OIG




AUDITS WITHOUT MANAGEMENT DECISION - NARRATIVE                         having specific monetary exceptions regarding NRCS’ determi-
FOR NEW ENTRIES                                                        nation as to whether or not to collect. They are asked to provide
                                                                       a copy of the bill for collection for amounts owed to the Gov-
1. Conservation Security Program (CSP) (10099-4-KC,                    ernment, and support that the amounts have been entered as
issued June 25, 2009)                                                  a receivable on the agency’s accounting records or evidence of
Although CSP’s goal is to encourage producers to reach “the            collection. If the agency opts not to collect from the cited pro-
pinnacle of good land stewardship” by entering into 5-10 year          ducers, we need NRCS’ justification for that action.
contracts that pay them for maintaining high conservation              2. Farm and Ranch Lands Protection Program
standards and enhancing existing practices, NRCS did not               (FRPP) – Nationwide Selected Non-Governmental
ensure participation by only those who met the program’s
                                                                       Organizations (NGO) (10099-6-SF, issued July 6, 2009)
standards. We found that NRCS awarded over half the
contracts in our sample (38 of 75) to participants who did             Overall, we found that NRCS has not implemented an effective
not qualify for the CSP or some portion of the conservation            management control system to monitor NGO’s compliance
payments received or expected to be received throughout the            with program rules and to ensure that landowners are treated
contract period. When implementing the program, NRCS                   equitably. In general, NRCS presumed participating NGOs
tried to maximize its restricted resources by limiting program         followed the rules instead of taking steps (such as performing
sign-ups to selected priority watersheds and utilizing unverified      reviews of NGO operations). We found that one of the nine
information provided by interested producers in their                  NGOs we reviewed used landowner funds to pay its share of
SelfAssessment Workbook to determine eligibility. By doing so,         the purchase price for its four FRPP easements—in violation of
NRCS trusted the applicants to provide accurate information            program regulations. The NGO misrepresented the source of
for this complex program. NRCS, however, did not implement             its funds by certifying that it had not obtained the money from
sufficient management controls, such as procedures requiring           landowners when it had. As a result, NRCS overpaid $716,563
confirmation of key producer-supplied information prior to             for the easements.
contract approval. Due to the inadequacy of controls that              In order to accept NRCS’ management decision, we need
would have helped identify ineligible producers, NRCS has              their final administrative determination whether to collect the
paid about $1.4 million for 38 questionable contracts for              questioned amount from the NGO. We will then include its
2006 and 2007 and is expected to pay nearly $4.3 million               justification for not collecting the questioned amount or a copy
more throughout the contract period. Without adequate                  of the bill for collection for amounts owed to the Government
controls to establish the eligibility of program participants          and support that the amounts have been entered as a receivable
and the propriety of payments made, NRCS lacks assurance               in the agency’s accounting records or evidence of collection.
that the $424 million spent since 2004 has been effectively            However, we confirmed in February 2010 that the case is still
used to reward and encourage excellent conservation, which is          pending at the United States Attorney’s Office for possible civil
CSP’s central purpose. Consequently, additional reviews and            prosecution, barring NRCS from taking any administrative
verification processes, such as ensuring consistent delineation        action.
at all USDA agencies, may prevent applicants from gaining
an unfair advantage and exceeding the established payment              3. RMA Compliance Activities (05601-11-At, issued
limits. NRCS awarded 23 of the 38 questionable contracts to            September 16, 2009)
applicants who certified to erroneous information about their          We found that RMA needs to develop an overall strategy for
operations.                                                            improving integrity of the Federal Crop Insurance Program.
                                                                       In addition, RMA needs to complete a risk assessment of its
NRCS generally agreed with the recommendations. We have
                                                                       program operations, improve its methodology for complying
reached management decision on 14 of the recommendations
                                                                       with the Improper Payment Information Act (IPIA), improve
and are awaiting NRCS’ response on the remaining 9. In order
                                                                       its large claims review process, and comply with
for management to form a decision regarding them, we require
                                                                       requirements outlined in the Agricultural Risk Protection
additional materials from the 38 producers we identified as




44     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                        Gauging the Impact of OIG




Act of 2000 (ARPA). RMA generally agreed with 14 of our                 integrity, performing a risk assessment of program operations
22 recommendations. We have reached management decision                 to identify major program vulnerabilities, revising its IPIA
on 12 recommendations and are awaiting RMA’s response on                sampling methodology and identifying causes of improper
the remaining 10. Open recommendations include establishing             payments, and implementing policies and procedures for
a comprehensive, well-defined strategy for improving program            reviewing disparate performance, as required by ARPA.




                                                 INDICTMENTS AND CONVICTIONS
 From October 1, 2009 through March 31, 2010, OIG completed 131 investigations. We referred 76 cases to Federal, State, and
 local prosecutors for their decision.

 During the reporting period, our investigations led to 164 indictments and 187 convictions. The period of time to obtain
 court action on an indictment varies widely; therefore, the 187 convictions do not necessarily relate to the 164 indictments.
 Fines, recoveries/collections, restitutions, claims established, cost avoidance, and administrative penalties resulting from our
 investigations totaled about $95.1 million.

 The following is a breakdown, by agency, of indictments and convictions for the reporting period.


                                 Indictments and Convictions—October 1, 2009 – March 31, 2010
                      Agency                                 Indictments                                   Convictions*
                       AMS                                        0                                              2
                      APHIS                                       59                                            65
                       FNS                                        85                                            99
                        FS                                        1                                              1
                       FSA                                        8                                             10
                       FSIS                                       4                                              4
                      GIPSA                                       0                                              0
                      NRCS                                        0                                              0
                      OCFO                                        0                                              0
                       OIG                                        1                                              0
                       RBS                                        0                                              0
                       RHS                                        3                                              2
                       RMA                                        3                                              4
                       RUS                                        0                                              0
                      Totals                                     164                                            187
 *This category includes pretrial diversions.




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half      45
                                                     Gauging the Impact of OIG




OFFICE OF INSPECTOR GENERAL HOTLINE                                 OIG Hotline received 1,225 complaints, which included allega-
                                                                    tions of participant fraud, employee misconduct, and misman-
The OIG Hotline serves as a national intake-point for reports       agement, as well as opinions about USDA programs. Figure 1
from both employees and the general public of suspected inci-       displays the volume and type of the complaints we received,
dents of fraud, waste, mismanagement, and abuse in USDA             and figure 2 displays the disposition of those complaints.
programs and operations. During this reporting period, the




   Figure 1. Volume and Type


                                                                                            Participant Fraud (780)



                 Employee Misconduct (183)

                 Bribery (1)
                 Reprisal (1)


                 Opinion/Information (127)


                 Health/Safety (25)
                 Waste/Management (108)




   Figure 2. Disposition of Complaints Received

                                                                                                   Referred to USDA Agencies
      Referred to Other Law
                                                                                                           for Response (391)
      Enforcement Agencies (1)

      Referred to OIG Audit or
      Investigations for Review (112)

      Referred to State Agencies (7)

                                                                                             Referred to FNS for Tracking (503)
      Filled Without Referral–
      Insufficient Information (68)


      Referred to USDA or Other Agencies
      for Information–No Response
      Needed (143)




46     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
                                                            Gauging the Impact of OIG




 FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS FOR THE PERIOD OCTOBER 1, 2009
                                       TO MARCH 31, 2010
Number of FOIA/PA Requests Received                                                                                    57
Number of FOIA/PA Requests Processed                                                                                   69
Number Granted                                                                                                         2
Number Partially Granted                                                                                               25
Number Not Granted                                                                                                     42
Reasons for Denial
No Records Available                                                                                                   15
Referred to Other Agencies                                                                                             2
Requests Denied in Full Exemption 3                                                                                    1
Requests Denied in Full Exemption 5                                                                                    1
Requests Denied in Full Exemption 7(A)                                                                                 12
Requests Denied in Full Exemption 7(C)                                                                                 2
Request Withdrawn                                                                                                      5
Fee-Related                                                                                                            0
Not a Proper FOIA Request                                                                                              0
Not an Agency Record                                                                                                   0
Duplicate Request                                                                                                      1
Other                                                                                                                  3
Requests for OIG Reports From Congress and Other Government Agencies
Received                                                                                                               0
Processed                                                                                                              1
Appeals Received                                                                                                       7
Appeals Processed                                                                                                      7
Appeals Completely Upheld                                                                                              5
Appeals Partially Reversed                                                                                             1
Not Proper FOIA request                                                                                                1
Other                                                                                                                  0
Number of OIG Reports/Documents Released in Response to Requests                                                       49
NOTE 1: A request may involve more than one report.
NOTE 2: During this 6-month period, 44 audit reports were posted online on the OIG Web site: http://www.usda.gov/oig




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half   47
                                                      Gauging the Impact of OIG




                      Abbreviations                                               Abbreviations
AMS                    Agricultural Marketing Service                 NITC        National Information Technology
APHIS                  Animal and Plant Health                                    Center
                       Inspection Service                             NJTTF       National Joint Terrorism Task Force
ARS                    Agricultural Research Service                  NMHSD       New Mexico Human Services
CACFP                  Child and Adult Care Food                                  Department
                       Program                                        NRCS        Natural Resources Conservation
CCC                    Commodity Credit Corporation                               Service
CI                     Criminal Investigation (IRS)                   OCFO        Office of the Chief Financial
CIGIE                  Council of the Inspectors General                          Officer
                       on Integrity and Efficiency                    OCIO        Office of the Chief Information
DHS                    U.S. Department of Homeland                                Officer
                       Security                                       OGC         Office of the General Counsel
EROC                   Economic Recovery Operations                   OIG         Office of Inspector General
                       Center                                         OMB         Office of Management and Budget
FAS                    Foreign Agricultural Service                   OOCIC       Ohio Organized Crime
FBI                    Federal Bureau of Investigation                            Investigations Commission
FCIC                   Federal Crop Insurance                         RATB        Recovery Accountability and
                       Corporation                                                Transparency Board
FDA                    Food and Drug Administration                   RBS         Rural Business-Cooperative Service
FNS                    Food and Nutrition Service                     RD          Rural Development
FS                     Forest Service                                 RHS         Rural Housing Service
FSA                    Farm Service Agency                            RMA         Risk Management Agency
FSAN                   Financial Statement Audit Network              RUS         Rural Utilities Service
FSIS                   Food Safety and Inspection Service             SNAP        Supplemental Nutrition Assistance
GAO                    Government Accountability Office                           Program
HARCFL                 Heart of America Regional                      SRA         Standard Reinsurance Agreement
                       Computer Forensics Lab                         SSA         Social Security Administration
HUD                    Housing and Urban Development                  TAAF        Trade Adjustment Assistance for
IRS                    Internal Revenue Service                                   Farmers
NCFD                   National Computer Forensic                     TEFAP       The Emergency Food Assistance
                       Division                                                   Program
NSLP                   National School Lunch Program                  TFP         Thrifty Food Program
NFC                    National Finance Center                        USDA        U.S. Department of Agriculture
NIFA                   National Institute of Food and
                       Agriculture




48     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2010 1st Half
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (104 TOTAL)
σσ   AMS agreed to strengthen its enforcement procedures and to resolve and track complaints in a timely manner, implement a plan
     for achieving compliance from California’s SOP, obtain an OGC opinion on residue testing, and strengthen oversight of certifying
     agents and operations.
σσ   FSA agreed with the internal control weakness and accepted our recommendation to revise its handbook to require officials to verify
     disaster-related compensation before issuing emergency loans.
σσ   RHS agreed to establish at least two additional performance measures to better reflect the agency’s success in meeting the purposes
     and principles of the Recovery Act.
σσ   FS agreed to take immediate action to modify the grant templates in I-Web to include the required Recovery Act provisions used for
     the Recovery Act-funded projects.
σσ   NRCS agreed to place a temporary hold on the use of the WRP valuation methodology for regular funding (non-Recovery Act)
     easements and is currently discussing with OGC the appropriate valuation procedures for the floodplain easement programs.
MISSION OF OIG
σσ   OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department. These programs
     encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural
     production, agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our
     citizens, our communities, and our economy.
OIG STRATEGIC GOALS
σσ   We have focused nearly all of our audit and investigative direct resources on our four goals:
σσ   Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural and
     Departmental resources.
σσ   Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.
σσ   Support USDA in implementing its management improvement initiatives.
σσ   Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
             To learn more about OIG, visit our website at
             http://www.usda.gov/oig/index.html

             How To Report Suspected Wrongdoing in USDA Programs

             Fraud, Waste and Abuse
             In Washington, DC 202-690-1622
             Outside DC 800-424-9121
             TDD (Call Collect) 202-690-1202

             Bribes or Gratuities
             202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)
             888-620-4185 (24 hours)




Semiannual Report to Congress

             The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race,
             color, national origin, age, disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual
             orientation, genetic information, political beliefs, reprisal, or because all or part of an individual’s income is derived from any
             public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative
             means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center
             at (202) 720–2600 (voice and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400
             Independence Avenue, S.W., Washington, D.C. 20250–9410, or call (800) 795–3272 (voice) or (202) 720–6382 (TDD).
             USDA is an equal opportunity provider and employer.
